<html>
<title> - ASSESSMENT OF SECURITY AND STABILITY IN AFGHANISTAN AND DEVELOPMENT IN U.S. STRATEGY AND OPERATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-15]
 
ASSESSMENT OF SECURITY AND STABILITY IN AFGHANISTAN AND DEVELOPMENT IN 
                      U.S. STRATEGY AND OPERATIONS 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 13, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

37-311 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     
















































                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                   Margee Meckstroth, Staff Assistant















































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, February 13, 2007, Assessment of Security and Stability 
  in Afghanistan and Development in U.S. Strategy and Operations.     1

Appendix:

Tuesday, February 13, 2007.......................................    41
                              ----------                              

                       TUESDAY, FEBRUARY 13, 2007
ASSESSMENT OF SECURITY AND STABILITY IN AFGHANISTAN AND DEVELOPMENT IN 
                      U.S. STRATEGY AND OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Eikenberry, Lt. Gen. Karl W., Former Commanding General, Combined 
  Forces Command-Afghanistan, U.S. Army..........................     7
Gastright, John A., Jr., Deputy Assistant Secretary of State for 
  South and Central Asian Affairs and Coordinator for 
  Afghanistan, Department of State...............................    10
Long, Mary Beth, Principal Deputy Assistant Secretary of Defense 
  for International Security Affairs, Department of Defense......     5

                                APPENDIX

Prepared Statements:

    Eikenberry, Lt. Gen. Karl W..................................    55
    Gastright, John A., Jr.......................................    72
    Long, Mary Beth..............................................    45

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Andrews..................................................    78
    Ms. Tauscher.................................................    77
ASSESSMENT OF SECURITY AND STABILITY IN AFGHANISTAN AND DEVELOPMENT IN 
                      U.S. STRATEGY AND OPERATIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 13, 2007.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, the meeting will come 
to order. I realize the weather is worsening outside but we 
will do the best we can. Our witnesses are here and I am sure 
the members will move in and out based upon their ability to 
get here this morning.
    We meet today to continue our discussion regarding 
Afghanistan. With us are several distinguished guests, Mary 
Beth Long, who is the Principal Deputy Assistant Secretary for 
International Affairs at the Defense Department. We appreciate 
you being with us. And the gentleman who has done yeoman's work 
and now is back with us, Lieutenant General Eikenberry. We 
thank you for your service. John Gastright, he is the Deputy 
Assistant Secretary of South and Central Asian Affairs and 
Coordinator for Afghanistan at the State Department. So welcome 
to each of you and particularly, General Eikenberry, thank you 
for your excellent service.
    I was in Afghanistan and Pakistan, Iraq a couple of weeks 
ago as part of a delegation led by Speaker Pelosi, and coming 
away from that trip you and our military leaders there have 
done an exceptional job, General, and our efforts continue to 
face severe challenges. The bottom line, however, I came away 
convinced that we can defeat the Taliban and al Qaeda in 
Afghanistan if we stay focused and if we devote the right 
troops in the right numbers and have the right strategy, at the 
end of the day we will get it done. I am pleased to see the 
Administration recently focusing more on Afghanistan and on its 
strategy. We lost critical time because of insufficient forces 
and inadequate resources. Recently there has been movement, new 
Afghanistan strategic review, request for supplemental 
assistance in the budget package, which includes funds for the 
Afghan security forces and efforts to press our North Atlantic 
Treaty Organization (NATO) allies to fulfill commitments. We 
will get into that during our discussion.
    These developments are part of what is needed to a well-
coordinated and comprehensive strategy that demonstrates long 
commitment to security and stability in that country.
    Afghanistan has been the forgotten. Some opportunities 
there have been squandered, but there is still a chance to set 
things right, particularly if we seize the moment and establish 
real security. We must do much more to secure and stabilize 
that country.
    Most critically and, General, we will appreciate your 
comments on this later, our NATO partners must do more. They 
made commitments to the fight in Afghanistan, some have been 
involved in heavy combat and sustained losses but many 
commitments remain unfulfilled. Our NATO partners must 
seriously step up their efforts by fulfilling their obligation 
for both troops and freeing their forces from restrictions that 
limit their ability to fight.
    For NATO to operate effectively each member must be able to 
rely on every other member of NATO to carry its share of the 
burden. The delegation I recently traveled with to Afghanistan 
all reached the same conclusions. So did the experts who 
testified at this committee's hearings on Afghanistan just the 
day after I returned from that country. I am particularly 
concerned about the anticipated spring upturn in the 
insurgency.
    The last thing, to secure Afghanistan necessarily involves 
the border region with Pakistan and development of competent 
Afghan security forces. By the way, we had a very interesting 
discussion with President Musharraf on that very issue. It was 
a positive discussion, as Secretary Gastright will probably 
comment on a bit later.
    There will be problems, ones that won't be overcome 
quickly, but I would like to have our witnesses help us 
understand what it will take to defeat the anticipated spring 
offensive and what it will take to defeat the Taliban and al 
Qaeda in Afghanistan for good and, last, what are we doing to 
increase the support from our NATO partners, our old friends, 
NATO partners, and get them to live up to those all important 
commitments.
    Let me turn to the gentleman from California, my friend and 
colleague the ranking member, Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. Thanks for holding 
this hearing. I think it is an excellent hearing and very 
timely and to our guests I join the chairman in giving you a 
warm welcome this morning. Thank you for being with us and 
stepping out into the elements to come over and be with us.
    Over the last six years coalition and Afghan officials have 
made significant progress in Afghanistan and I recognize though 
that there is a lot that still has to be done. Afghanistan's 
continued dependence on poppy cultivation and narcotics 
trafficking still poses an extremely serious threat to long-
term security and stability and U.S. officials and experts 
agree that last year was the highest poppy yield ever produced 
in Afghanistan, resulting in nearly 6,100 metric tons of opium, 
an amount that is likely to be repeated in 2007 if we don't 
address the situation promptly and comprehensively.
    It is also my understanding that Afghanistan's poppy 
production and narcotics trade provides for about one-third of 
the country's Gross Domestic Product (GDP) and likely finances 
some of the violent activities of the Taliban-led insurgents. 
So I hope you will talk to this issue this morning and 
specifically what the U.S., Afghanistan, NATO, and other 
coalition partners are doing to address this narcotics problem.
    One solution that has been talked about and discussed quite 
a bit by this committee is the idea of alternative agriculture 
products. The one area that appears to me to be especially 
promising but one that we haven't made as much headway on as I 
would hope would be replacing the poppy fields with orchards. 
It would make sense that if you have an almond crop or pecan 
crop or some other type of a fairly high dollar cash crop that 
is manifested in an orchard, farmers are going to be much less 
likely to go in and chain saw their trees to put in a poppy 
crop.
    So I would like you to talk about that and how we are doing 
in terms of offering this replacement to the farmers in 
Afghanistan and whether they are receptive to it and along that 
line obviously you have a traditional system in Afghanistan, 
especially in the smaller communities and villages, the so-
called shuras, which is the meetings of the tribal leadership 
and community leadership. And I understand if we are going to 
sell this alternative agriculture path to these folks, we are 
going to need to sell it through their leadership and through a 
following of the traditions that are already in place and 
through these traditional forms. I would like to know how you 
are going to do that. I have heard--of course we all conduct 
oversight by anecdotes and stories and statements from folks 
that have been there, but we have heard folks talk about the 
idea that you have big contractors who stay behind the wire, so 
to speak, do a lot of things through intermediaries and in the 
end a lot of these poppy fields that could be replaced with 
orchards haven't been.
    And again I am reminded that if you give people work, if 
you simply pay them to go out and put an irrigation ditch in or 
something else, that is work for a day, but that doesn't 
displace them on a permanent basis from this very lucrative 
trade of narcotics. So tell us how we are going to get this 
thing done. I have often thought maybe it would be a good idea 
to simply replace a legion of our bureaucracy personnel, who 
are very fine personnel but to replace a lot of them in these 
hands-on areas simply with agriculture professionals, farmers 
and people that know how to get irrigation systems in and how 
to get trees up and how to use pesticides and how to make 
things grow, how to harvest, how to get money, how to market, 
get hands-on ag professionals in these places, and they might 
be better diplomats than the folks who are emanating from the 
State Department and from the United States Agency for 
International Development (USAID) who don't have hands-on ag 
experience.
    So let us know how on a practical common-sense basis we are 
going to be able to start getting this replacement system, the 
substitute system into place and thereby depress the number of 
acres that is now being put into drug crops.
    We have got 25,000 people in Afghanistan, U.S. military 
service members. Half of them are serving in this NATO-led 
International Security Assistance Force (ISAF). And we 
understand that ISAF has responsibility for military operations 
and reconstruction efforts throughout Afghanistan. A very 
significant leadership role. But I am also aware of the fact 
that, as the chairman has mentioned, that the United States is 
still carrying by far, even though we are conducting the 
operation in Iraq without the help of a number of our NATO 
partners, we are conducting--we are carrying a burden far 
disproportionate in Afghanistan if you use our GDP or our--or 
the number of countries involved who are members of NATO in 
theory available to carry this security burden, and I would 
like to know what we are doing to inspire our NATO allies, 
cajole, inspire, contract or whatever it is going to take to 
get them to step up to the plate and take their burden.
    Years ago I looked at the formula, I searched for the 
formula for burden sharing in NATO operations. How do you 
determine who brings what and how much they bring. And the 
answer that I got was there is no formula. This is like potluck 
and some people will bring the T-bone steaks to the potluck and 
others will bring the plastic forks. Historically the United 
States has brought the T-bone steaks; that is, we brought the 
money, in aerial operations we bring to air-to-air refueling, 
strike aircraft, we bring munitions, and you have a little 
bitty ground crew trot out with five, count them five, or ten 
personnel from a NATO ally and that makes it a NATO operation. 
America is dominant in terms of leadership but also dominant in 
terms of dollars supplied.
    I want to know how you are going to change that. I think 
that Afghanistan is a prime site for some precedent setting 
arrangements with out NATO allies to bring them into this 
burden sharing and bring them into the thick of the operation, 
understanding the folks that we sometimes call the usual 
suspects, affectionately, the Brits, Canadians have difficult 
areas of operations (AORs). They are in contentious areas, 
others are not. But let us know how we are going to move NATO 
into a more supportive role.
    So thanks for your testimony here today. I look forward to 
listening to you and especially if you could address the 
question of burden sharing with NATO, and the displacement, the 
substitute ag programs, I would appreciate it. Thank you, Mr. 
Chairman.
    The Chairman. Thank the gentleman, my friend from 
California. Let me ask our witnesses if possible--we of course 
will take your prepared statements into the record. If you 
could condense it as best you can within four minutes, please, 
that will leave more time for questioning.
    Mr. Hunter. Mr. Chairman, before you start could I ask a 
question here. Mr. Chairman, at the last hearing we had 
Secretary Gates was testifying and we had a hearing with 
respect to Iraq. I was told after the hearing that we had some 
of the folks who don't like the Iraq policy were standing in 
the hearing room. I think decorum requires that they should be 
seated if we are going to have guests. All our guests are 
seated. But I heard beyond that that it was reported that they 
were whispering fairly derogatory comments to the witnesses 
from right behind them while they were testifying. I think in 
something this serious, in having hearings on these very 
serious areas of operations, we should have decorum in this 
room and certainly whispering things to the witnesses, 
witnesses as they are trying to talk to us and listen to us 
surely goes beyond the rules of decorum.
    I would think also having folks standing up in the room 
when everybody else is sitting down does the same thing, and I 
would just ask if we couldn't ask our guests, all of our guests 
to be seated when they come into the hearing room. I think that 
is a reasonable thing.
    The Chairman. I heard the same comment about them 
whispering. I had not heard--had they been heard by me at the 
time they would have been thrown out. The people who were 
standing at my request did move to the back and they did not 
disrupt anything. Any gestures or noise, they of course will be 
removed. Thank you for your comments.
    Mary Beth Long.

    STATEMENT OF MARY BETH LONG, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, 
                     DEPARTMENT OF DEFENSE

    Ms. Long. Chairman Skelton, Congressman Hunter, members of 
the committee, the first thing I would like to do is thank each 
and every one of you for the tremendous support that the 
committee gives to the Department of Defense and to our men and 
women in Afghanistan. Your support is appreciated and it is an 
honor to be here to testify in front of you.
    It has been about six months since I have been here to talk 
to you about Afghanistan, and I am pleased to note that there 
has been tremendous progress in that country and that many of 
you have had the opportunity to see that progress on the ground 
firsthand, the progress made by our coalition troops, our NATO 
allies, the U.S. forces there, and of course the continuing 
growth of the Afghan government.
    As you know, the Secretary of Defense as one of his first 
acts after taking office traveled to Afghanistan and he 
recently returned from Seville, where he met with NATO members 
to discuss NATO efforts in Afghanistan.
    In these last years NATO has actually shown tremendous 
growth and the allied coalition in Afghan has been impressive. 
NATO has grown tremendously since its first undertaking of the 
Afghan mission, its first ever deployment outside the European 
theater and arguably probably the most challenging in its 57-
year history.
    NATO now commands 25 Provincial Reconstruction Teams (PRTs) 
and as of October is in command of and responsibility of 
Afghanistan, and that is all the areas. The regional command 
south was the most recently turned over. Still, NATO must do 
more, the European Union (EU) must do more, the international 
community must do more, and we all must do more to enable the 
Afghans to do more for themselves. The U.S., we remind 
ourselves, is only one of the NATO partners, and we have 
recently committed to do more.
    Before Congress for approval is a budget and a defense 
budget for $5.9 billion to enhance the Afghan security forces, 
and that is in the fiscal year 2007 supplemental budget as well 
as $2.7 billion in the fiscal year 2008 global war on terror 
(GWOT) budget.
    This is for urgently needed equipment for the Afghan police 
and the Afghan National Army. This equipment includes things 
like advanced first aid, better weapons, assault rifles, 
helmets and personal security equipment. I urge you to support 
that budgetary request.
    In addition, the Department is doing more in its recently 
announced undertaking to extend troops in Afghanistan in order 
to augment its combat capabilities in the springtime as the 
Taliban and insurgents draw near. Only days ago our Supreme 
Allied Commander, General Craddock, presented NATO with a 
revised combined joint statement of requirements (CJSOR), for 
those of you familiar, the CJSOR forum. This is a list of 
required military support for NATO and ISAF efforts.
    While we are encouraged with the preliminary offers of new 
resources, and I would like to take a moment to highlight here 
the offers from Poland, Turkey and the Czech Republic, we look 
forward to additional offers as our NATO allies take this list 
home in the next days, review them in their nations and respond 
with additional contributions.
    As Secretary Gates indicated recently in Seville, allies 
who have made a commitment should fulfill that commitment. We 
remind ourself that NATO is indeed a military organization and 
while all share in the financial burden, all must also share in 
the risks.
    We recognize, however, that security alone will not win in 
Afghanistan. To complete the transition from a terrorist safe 
haven to a moderate and independent state, Afghanistan will 
need additional infrastructure, economic development and 
improved governance and services. Military efforts must be 
balanced with the appropriate mix of economic, political and 
developmental activities. A comprehensive approach is needed 
and is being implemented.
    To that end, the Commander's Emergency Relief Program 
(CERP). Many of you know that CERP is a key element of our 
strategy in Afghanistan. Aside from addressing the threat to 
Afghanistan by building internal security capacity----
    The Chairman. Just a moment, please. The Chair is tolerant 
but anyone that is disrupting either by gesture or by movement 
is not welcome. If you are going to stand, stand, but turning 
around and disrupting anything will not be tolerated. Do you 
understand? Please proceed.
    Ms. Long. Thank you, Mr. Chairman. Aside from addressing 
the threat in Afghanistan by building internal security 
capacity and facilitating reconstruction and other 
developmental efforts, we are working to address regional 
actors as well, and notably Pakistan. As recently as this 
morning Secretary Gates returned from a trip to visit President 
Musharraf. On the heels of a Seville discussion the Secretary 
thanks the President for his continued Pakistani support for 
our GWOT and Afghan efforts and impressed upon him the need to 
eliminate the Taliban and continue his efforts against 
insurgents of all types.
    It is important to remind ourselves that our involvement in 
Afghanistan should be viewed in a broader context and not just 
simply our true presence as a result of 9/11 and the place 
where the terrorists came from. Just look at the neighborhood. 
Afghanistan abuts Pakistan, the largest Muslim nation in the 
world and one in which tribal areas have heretofore been 
ungoverned by a modern governed nation. Pakistan is also a 
nuclear country.
    To the west, Iran, a growing regional power and one that is 
involved in undermining our efforts in Iraq and a nuclear 
aspirant. To the northeast, China, and to the north Tajikistan, 
Uzbekistan and Turkmenistan, all former Soviet republics 
struggling to become responsible international players.
    Both China and Russia have made it very clear that U.S. 
presence in the region is unwelcome and need to look only at 
the Shanghai cooperation organization in order to bear witness 
to that intent. Strategically placed in the middle of this 
neighborhood astride these trade routes and access to important 
national resources is Afghanistan. Afghanistan is a traditional 
Muslim country where the people as a whole have committed 
themselves to the idea of a democratically elected government. 
It is one that still welcomes coalition and U.S. forces. In its 
first year, in fact, the Assembly of Afghanistan confirmed a 
cabinet, it made Supreme Court appointments, and it passed a 
national budget.
    While Afghanistanis have the will, they need continued 
involvement. They need our commitment, our expertise and our 
assistance of the U.S. and the international community in order 
to succeed. With the additional congressional support that we 
have requested, the men and women of the Department of Defense 
stand ready to further our continued successes and advancements 
in Afghanistan in conjunction with the government of 
Afghanistan and its people.
    I thank you again for the opportunity to be here, for your 
continued support and I look forward to your questions.
    [The prepared statement of Ms. Long can be found in the 
Appendix on page 45.]
    The Chairman. Thank you so much.
    General Eikenberry.

  STATEMENT OF LT. GEN. KARL W. EIKENBERRY, FORMER COMMANDING 
    GENERAL, COMBINED FORCES COMMAND--AFGHANISTAN, U.S. ARMY

    General Eikenberry. Chairman Skelton, Congressman Hunter, 
members of the committee. Having just departed from command of 
the Combined Forces Command--Afghanistan, it is an honor to 
provide the committee an update on the mission there and to 
represent the American soldiers, sailors, airmen, Marines and 
civilians who are performing brilliantly in Afghanistan.
    Before answering your questions I would like to provide a 
very brief update on campaign progress to date, current threat 
assessment and outline four major areas that I believe are 
essential for future campaign success.
    First, regarding campaign progress to date. Our mission in 
Afghanistan as you know has been twofold: First, the defeat of 
al Qaeda and their Taliban militant extremist allies, and 
second, to help create the conditions inside of Afghanistan 
where international terrorism could never again find support 
and sanctuary.
    We have achieved much since 2001. A ruthless, deadly 
international terrorist-controlled regime has been defeated. 
Afghanistan now has a moderate constitution, a democratically 
elected President, a sitting parliament, a confirmed cabinet, 
increasingly effective Afghan national security forces, a 
dramatic increase and expansion of key social services and 
ongoing economic reconstruction and development.
    However, we do face major challenges. There is a 
reconstituted Taliban enemy, slow growth of governance capacity 
and a rise in narcotrafficking. Our significant near-term 
threat to campaign success is the insurgency focused in 
southern Afghanistan and directed by the former Taliban regime. 
The longer term threat is the loss of legitimacy of the 
government of Afghanistan. We need with more urgency to build 
Afghan government capacity and help connect it to the Afghan 
people.
    To overcome these threats and achieve campaign success 
there are four major areas which I would like to address: NATO 
command, transition to Afghan leadership, the need for more 
non-military means in the campaign, and the regional nature of 
terrorism and insecurity.
    First, with regard to NATO, on 5 October 2006 NATO-
International Security Assistance Force, or NATO-ISAF, as we 
say, assumed command of the Afghanistan-wide international 
military mission. The Afghan operation has now grown to what is 
clearly the most ambitious in the alliance's 57-year old 
history, making it the first ever deployment outside of Europe.
    NATO-ISAF is currently comprised of some 36,000 personnel 
from 37 nations; that is 26 NATO members plus 11 other partner 
countries. The U.S. does provide the majority of the combat 
forces and the critical military capabilities to NATO-ISAF. 
While having achieved much thus far, NATO must do more to 
fulfill its commitments to provide sufficient forces and 
capabilities to the mission and NATO must also increase its 
level of support to the training and the equipping of the 
Afghan national security forces.
    The second key area for campaign success is completing the 
transition to Afghan leadership. Here a critical U.S. military 
task has been to develop Afghan national security forces; that 
is, the Afghan National Army and the Afghan National Police 
Forces. Today over 32,000 Afghan National Army and 59,000 
Afghan National Police have been trained, equipped and they are 
engaged in security operations alongside our forces. We are now 
expanding the Afghan National Army basic training class sizes 
to 2,000 per cycle, a very important increase in capacity.
    Afghans are finding pride in serving in their Afghan 
National Army and Afghan National Army units are directly in 
the fight.
    Comprehensive reform of the Ministry of the Interior and 
its police forces is underway. Progress is being made, but we 
face very formidable challenges in delivering timely results. 
The key third area for campaign success is in non-military 
means. While we have enjoyed success with the assumption of the 
Afghanistan mission by NATO and in the development of Afghan 
national security forces, Afghanistan's continued development 
will depend much upon increasing emphasis on the government of 
Afghanistan and the international community focusing on the 
non-military aspects of the mission.
    Throughout Afghanistan's 34 provinces rebuilding the so-
called middle ground of civil society ravaged by three decades 
of warfare remains the primary concern of the majority of the 
Afghan people. According to a recent survey, almost 90 percent 
of the Afghan people consider reconstruction and economic 
development the most important requirement to improve their 
lives.
    The international community must provide more resources in 
the areas of governance, justice, counternarcotics and economic 
development.
    The final area of emphasis is effectively addressing the 
regional nature of terrorism and insecurity. We cannot win this 
fight by concentrating in Afghanistan alone. Pakistan faces 
similar internal challenges, including militant extremism that 
grows in ungoverned spaces. Pakistan is working hard to address 
the growing threat of Talibanization within its own borders as 
well as contributing extensively to the global war on terror.
    As we work toward improving governance, economic 
development and security in Afghanistan, we must maintain and 
strengthen cooperative relations with Pakistan. However, I will 
emphasize that al Qaeda and Taliban leadership presence inside 
of Pakistan remains a very significant problem.
    In closing, allow me to emphasize that we are now at a 
critical point where a strategic investment in Afghan 
capabilities is needed to accelerate the progress toward the 
desired goal of helping establish a moderate, stable, and 
representative government of Afghanistan. This requires 
significant resources, it requires time, it requires patience 
and it requires commitment. We are carrying out an 
extraordinarily difficult task in Afghanistan. We are trying to 
build an Afghan values-based army and national police force 
while we simultaneously fight a war.
    The fiscal year 2007 supplemental investment proposed by 
the Administration would permit the Afghan Army to continue to 
expand to the internationally agreed level of 70,000 and enable 
the Afghan National Police to increase to the size of 82,000 by 
the end of calendar year 2008. That supplemental appropriation 
will also equip the Afghan National Army and Police with the 
protection, fire power, weapons, enhanced training and mobility 
that is required to meet the increased insurgent threat.
    In addition, the Administration's fiscal year 2007 
supplemental request would permit a significant increase in 
spending for roads, for power, and for economic development 
addressing the non-military means. The leadership of 
Afghanistan is committed to being an active partner in the 
global war on terror in the long term. The Afghan people and 
their nation's leaders are absolutely worthy of our trust, our 
confidence and our support. It is in the United States' 
national interest to gain and keep a partner and a friend who 
we can count on in this critical region of the world.
    Please accept finally my deepest thanks for continued 
support of the committee, to our great soldiers, sailors, 
airmen and Marines and to our civilians. Their sacrifices and 
those of their families continue to enable the establishment of 
an Afghanistan with its goal of reaching a secure, free and 
stable nation. It was a privilege and honor to serve with the 
members of the coalition. I look forward, Chairman, to your 
questions.
    [The prepared statement of General Eikenberry can be found 
in the Appendix on page 55.]
    The Chairman. Thank you. Secretary, as I understand it 
Ambassador to be, Gastright.

STATEMENT OF JOHN A. GASTRIGHT, JR., DEPUTY ASSISTANT SECRETARY 
 OF STATE FOR SOUTH AND CENTRAL ASIAN AFFAIRS AND COORDINATOR 
              FOR AFGHANISTAN, DEPARTMENT OF STATE

    Secretary Gastright. Mr. Chairman, Congressman Hunter, 
members of the committee, thank you for the opportunity to 
participate today. Let me just start by noting how honored I am 
to appear with General Eikenberry. As Commander of Combined 
Forces Command--Afghanistan, General Eikenberry was an 
invaluable leader and a partner in our efforts to win in 
Afghanistan. I once heard him refer to his State Department 
colleagues as his teammates. Let me say it is an honor to be a 
part of that team.
    Mr. Chairman, as you suggested in your opening statement, 
this afternoon you will hear from General Eikenberry and Ms. 
Long about the challenging spring we are going to face in 
Afghanistan and the efforts that we are going to make to 
counteract Taliban and other elements working against the 
government of Afghanistan, the United States and our allies 
this spring.
    My State Department colleagues and I share this assessment. 
In the face of these challenges we are better prepared this 
year to tackle the threats we faced than we were last year. 
U.S., Afghan and allied partners have more tools in our toolbox 
than ever before. We start 2007 in a better position, with more 
police, more Afghan national troops, more ISAF troops, better 
governance, more roads, better in the south particularly than 
ever before.
    This summer we concluded an interagency assessment of what 
we are doing in Afghanistan and we concluded that Afghan--parts 
of Afghanistan, especially in the east, were successfully 
stabilized when military action was followed closely by the 
injection of good governance, including competent governors and 
police and economic opportunity. Integration of all these 
elements together in a comprehensive manner have produced 
sustainable results, whereas military success without the 
follow-on political, economic and development efforts often led 
to a merely temporary calm.
    We also clearly recognize that the international community, 
including the United States, needed to increase the level of 
support, joined together in endorsing and implementing this 
comprehensive approach, and focused even more sharply on the 
needs of the Afghan people. We believe that if we take this 
comprehensive approach and put it to work in more of 
Afghanistan we will see increased stability and strengthened 
Afghan government presence across the country.
    To enable this comprehensive approach, on January 26th 
Secretary Rice announced a request for more than $10.6 billion 
in new assistance over the next 2 years, including more than 
6.7 billion in the fiscal year 2007 supplemental and more than 
4 billion in fiscal year 2008. That assistance, which will go 
to both reconstruction and development of Afghan security 
forces, is vital not only for success this spring but also to 
help secure long-term success for the government and the people 
of Afghanistan. We hope that the Congress will support this 
request in its entirety.
    The United States is certainly determined to do its part, 
but as you suggested, the allies in NATO and elsewhere need to 
do more as well. NATO needs to meet the requirements it set 
when taking on the NATO mission in Afghanistan and drop the 
caveats that hamper our cooperation and effectiveness and 
supply the forces that commanders need to succeed in their 
efforts.
    This is the message that Secretary Rice and Secretary Gates 
have taken to recent NATO ministerials in both Brussels and 
Seville. We have seen positive offers from a number of 
countries increasing their commitments, but we need to see even 
more and will continue to talk with donor nations about what 
they can to do to support the government of Afghanistan.
    We are also working closely with the government of Pakistan 
to identify additional actions it can take to help destruct the 
Taliban this spring. They are serious about this effort and 
have demonstrated it with a number of important activities 
designed to deal with militants using their territory such as 
raids and attacks in border regions in recent months against 
both Taliban and al Qaeda targets. The Pakistani military 
continues operations and has regretfully taken casualties in 
this fight against a mutual enemy.
    Mr. Chairman, although we have come a long way in 
Afghanistan, no one seeks to underestimate the challenges 
ahead. Our international partners in the government of 
Afghanistan expect the United States to lead the way in the 
stabilization and reconstruction of Afghanistan.
    The strong long-term U.S. commitment that we display is 
making the difference and must continue with intensity. We at 
the Department of State appreciate all that this committee does 
to support this most important endeavor. Thank you again for 
this opportunity to appear before the committee. I look forward 
to your questions.
    [The prepared statement of Secretary Gastright can be found 
in the Appendix on page 72.]
    The Chairman. I am going to reserve my comments until a 
later moment. After I call on the ranking member Mr. Hunter, I 
will go directly to Mr. Taylor.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, and thanks to all of 
our witnesses for your opening statements. General Eikenberry, 
tell us about the participation by the NATO allies. Secretary 
Long went over the 36, or the 26 NATO allies plus I think you 
said 26 other nations that are involved, although the United 
States carries the majority of the combat load. Give us a 
description of the six or seven or eight major players besides 
the United States and give us a brief description of their 
location and their mission as part of the overall mission in 
Afghanistan. Where are they, what are they doing?
    General Eikenberry. The critical contributors, of course, 
as you indicated, led by the United States, there is currently 
about 36,000 NATO-ISAF forces and of those forces currently 
about 16,000 of those 36,000 are United States. We have other 
forces in Afghanistan. We have a total of 27,000, but of our 
27,000, 16,000 are under the NATO flag of the total NATO-ISAF 
force of 36,000. So 20,000 non-U.S. NATO forces.
    Our forces are throughout Afghanistan. Those under the NATO 
flag are primarily in eastern Afghanistan, which is a dangerous 
area, where there is an active counterinsurgency. We are also 
making a very important contribution to southern Afghanistan, 
where they also are fighting a counterinsurgency. Other major 
troop contributors are the United Kingdom. United Kingdom's 
combat force are primarily in southern Afghanistan where they 
are engaged in an active counterinsurgency. Canada makes a very 
significant contribution; their forces in southern Afghanistan.
    Mr. Hunter. About how many folks are in the British and 
Canadian contingents?
    General Eikenberry. Congressman, the contribution of the 
United Kingdom in its combat capability in southern Afghanistan 
is about 3,000, and I believe their total force contribution in 
Afghanistan is over 4,000. So they are doing other tasks as 
well. I will get back to you with the exact numbers. The 
Canadian contribution; the Canadian contribution is well over 
2,000. Again I will get back with you on significant numbers. A 
vast majority of that is in Kandahar in southern Afghanistan. 
Other major contributors, the Germans have a very significant 
contribution to the NATO forces. They are primarily in northern 
Afghanistan. Northern Afghanistan is not fighting a dangerous 
counterinsurgency. I would like to emphasize Afghanistan by its 
nature can be a dangerous place at any time so wherever forces 
are, where international forces are, they can be under attack, 
to include the German forces I mentioned have been under 
attack. German forces are also located in the greater Kabul 
area contributing to security there. The Italians----
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Hunter. On that point, General Eikenberry, I think who 
was it Tony Cordesman who said that the Germans aren't forward 
leaning in their exposure, that they are in a fairly well-
garrisoned situation and are not involved in confrontational 
military activities. Can you describe what they are doing?
    General Eikenberry. The Germans are conducting stability 
operations in northern Afghanistan. I have visited the German 
forces, I visited them about six months ago. Congressman, I was 
impressed when I went up there with the manner in which they 
are conducting stability operations. However, their forces are 
not in eastern Afghanistan and they are not in southern 
Afghanistan and that is where we are continually fighting and 
having to fight offensive combat operations against a very 
dangerous enemy. So it is two very different environments.
    My sense was when I visited them though in the north within 
that particular environment with that particular mission I 
thought that they were doing well.
    In western Afghanistan another major troop contributing 
country is the Italians. Western Afghanistan, again, different 
from eastern and southern Afghanistan where there is an active 
insurgency. We also have a very significant Dutch force in 
Oruzgan Province, southern Afghanistan. It is a dangerous area. 
And then the other major troop contributors that I would 
highlight would be the Turkish and the French. Their forces are 
primarily located in the greater Kabul area providing security 
and patrolling in the greater metropolis there.
    I would make several points about the entire NATO force 
then that is on the ground now. As was highlighted by all of us 
during our opening remarks, Congressman, as you indicated as 
you opened, that there are shortfalls with NATO. There is 
significant shortfalls. Politically the alliance has approved a 
set of military forces, capabilities and requirements to deploy 
to Afghanistan. Those remain under fulfilled, about 85 or 90 
percent. We have shortages of what we call a tactical theater 
reserve force in Afghanistan, about an infantry battalion that 
can be used anywhere. We are short military intelligence, short 
rotary wing aircraft helicopters, more fixed wing aircraft. 
They have to do more.
    The second challenge that NATO is facing is that their 
forces committed have various sets of national restrictions 
placed upon them. Those restrictions are operational 
restrictions that may preclude them, for instance, from going 
to one region of Afghanistan and then going to other areas 
where they might have to fight offensive combat operations.
    The more restrictions that are placed on those forces, the 
more inefficient the command is, and the only way you can 
offset those restrictions is then by having more forces to 
compensate.
    Then the third point I would make with NATO, though, and a 
good point I think, Congressman, is that we do have to go back 
to the baseline of 2003 when NATO first assumed the missions in 
Afghanistan. When they went in in 2003 they had a very narrow 
mandate; it was for the security of the greater Kabul area. As 
Secretary Long indicated, it is the first time in NATO's 57 
years history they have been outside of Europe and conducting 
offensive ground operations. So a huge challenge.
    They have grown in their missions since 2003. They went to 
the north in 2004, they expanded to the west in 2005, and the 
significant expansion to the south and east in 2006 and 7. They 
have shown that over that time they continue to adapt and grow. 
But this is the most significant step that they made in October 
2006 when they took over the whole mission. They are fighting 
an active counterinsurgency and they have to adapt and grow 
faster and more into this mission.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Mr. Taylor. I will remind the committee of 
the excellent work you have been doing on the five-minute rule 
and we will once more remind you of that.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Want to thank our 
witnesses for being here.
    General Eikenberry, it has now been five years and five 
months since the events of September 11th. General Eikenberry, 
it has been five years and five months since September 11th, 
2001, and apparently the mastermind of that event is still on 
the loose.
    Using the analogy of Iraq and to a certain extent our hopes 
were that with the capture of Hussein that the insurgency would 
diminish. That did not prove to be the case. My question to you 
is in your professional opinion if Osama bin Laden were 
captured today what effect, if any, would that have on the 
insurgency in Afghanistan? To what extent do you think he is 
involved in the resurgence of the Taliban there, and if he is 
not a major player, then who or what groups would you identify 
as the organization of the Taliban?
    General Eikenberry. Congressman, I do not believe that the 
capture or killing of Osama bin Laden would have a significant 
immediate impact on the insurgency in Afghanistan. Certainly 
the elimination of bin Laden would have reduced some of the 
perhaps ideological support that is generated from him being on 
the loose within the international global terrorist network, 
but I don't think it would have any kind of operational impact 
within Afghanistan. Bin Laden remains one person, an important 
person that we need to bring to justice, but he remains one 
person in a much larger global international terrorist network.
    Then what is driving the insurgency in Afghanistan? To 
answer your question, first of all, there is a nexus or there 
is collaboration between international terrorism in that part 
of the world and their network and the senior leaders of the 
old Taliban regime and other allied groups with them, the group 
led by Hekmatyar, a group led by the Haqqani clan. And they do 
have command and control and more coherent command and control 
I believe now than they might have been able to generate 
several years ago.
    We do have a problem with sanctuary and safe havens in that 
regard and this is a problem that needs to be addressed more 
effectively.
    The second problem that we have got with the insurgency 
though, Congressman, that I would really emphasize is that the 
challenge remains in Afghanistan about trying to build the 
institutions of the state and then expand governance in 
Afghanistan, which is a very difficult process because our 
baseline that we begin with in 2001 is really just ashes, a 
country decimated by three decades of warfare and through the 
occupation of international terrorism. And so we are trying to 
build from that. Mixed in with the topographical challenges, 
the geographical challenges that we face in Afghanistan, it is 
a daunting prospect. There are no areas in Afghanistan today 
where the government has had firm control, providing reasonable 
security to the people and providing basic social services. 
There are no areas of Afghanistan, to include southern 
Afghanistan, where insurgents have been able to push that out 
and establish their own presence.
    So it is a challenge of defeating the command and control 
and it is a challenge of continuing to stand the government of 
Afghanistan up and push it out into new areas.
    Mr. Taylor. I am curious, I guess one of the worst kept 
secrets of the Cold War is our Nation's very active resupply of 
the insurgents against the Russians. To what extent, if any, 
are outside players involved in resupplying the Taliban?
    General Eikenberry. Our belief is that Taliban and the 
insurgents, Congressman, that the assistance that they get from 
the outside is through financing, it is through the provision 
of foreign fighter trainers coming into ungoverned spaces and 
providing assistance to the Taliban insurgents. This though is 
not any kind of outside state that is directing assistance to 
these groups, these are all nonstate actors.
    Mr. Taylor. Thank you very much. Thank you, General. Thank 
you, Mr. Chairman.
    The Chairman. Thank the gentleman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank the witnesses for 
being with us today. Secretary Gastright, you used the phrase 
``drop the caveats'' in your remarks, and, General Eikenberry, 
you talked about eliminating restrictions. Are we talking the 
same thing here? Let me start with you, Secretary Gastright. 
Are you talking about--when you say the caveats, these are 
caveats from the NATO participants that don't allow them to do 
certain things, is that right?
    Secretary Gastright. That is correct, sir.
    Mr. Kline. Yours is the same, General Eikenberry, is that 
correct, that you can't go into certain areas of the country or 
engage in certain kinds of operations as well, is that what you 
are talking about as well?
    General Eikenberry. That is exactly right, Congressman.
    Mr. Kline. From anybody, what do you see as progress that 
is being made today toward getting rid of those caveats or 
restrictions. I don't know who to go to here, but clearly we 
are working on trying to change that. What is happening?
    Ms. Long. As recently as the Secretary Rice's visit January 
26th in Brussels and as well as the CJSOR summit some of the 
countries pledged to reduce some of their caveats in particular 
when it came to coming to the aid of another country throughout 
Afghanistan. There were other offers made to lift or condition 
caveats in a more flexible way, and we are working with those 
countries now to get a firm commitment to lift the restrictions 
on moving their forces.
    Mr. Kline. Are we seeing progress? Do we like the feedback 
we are getting?
    Ms. Long. In CJSOR we did see some progress, in particular 
when it came to moving forces out of the north and some of the 
other countries to come to the aid of forces in the south and 
the east if need be.
    Mr. Kline. Then, General Eikenberry, just following up on 
that, what this tells me is that all the forces are not the 
same. We can list 26 countries or 36 countries or something and 
some countries have 2,000 or 3,000 or 200, but they are very 
different in what they are able to do, is that not correct?
    General Eikenberry. Congressman, that is a very important 
point, that there is a question of numbers and then there is a 
question of the capabilities associated with those numbers or 
questions of, let's say, quantity and quality. So that is an 
important consideration.
    Mr. Kline. In some cases it is even capability in the sense 
that the soldiers from one country may be capable of doing 
something but if they are not allowed to leave the compound, 
pursue and so forth, that would translate into limited 
capability. So when you add the total numbers, that doesn't 
really tell you where we are and what we are able to do, is 
what I am getting at here.
    General Eikenberry. Numbers, of course, numbers matter at 
one level because numbers are important in trying to generate 
forces. You do need to look at numbers at some level. But your 
point is an important one, that what kind of effects can you 
achieve with those numbers and those effects that you can 
achieve are going to be dependent upon a variety of factors, 
but the two important factors that you have addressed are 
operational restrictions, in which case they won't be able to 
receive 100 percent effects or they may have limitations in 
their equipment and training.
    Mr. Kline. Okay. We have had much discussion in this 
committee over the past several months, even years over a 
breakdown, I think what we see as a breakdown in the 
interagency process in this country back here in the States and 
deployed overseas principally in Afghanistan and Iraq where we 
are not able to communicate together very well.
    I would like a comment on how that is working in 
Afghanistan, and just seems to me that that whole process, the 
problems have got to be greatly exacerbated by this issue we 
were just talking about where you not only have interagency 
perhaps failure to communicate but clearly you have this 
problem in different countries. I am almost out of time so a 
comment from anybody on how that interagency process is 
working.
    Secretary Gastright. From this side, from the Washington 
angle, I think we have superb interagency coordination. I 
communicate with Ms. Long on a daily basis. Again, General 
Eikenberry refers to State and USAID colleagues as teammates so 
we are pleased to be on that team.
    Mr. Kline. I will accept that for now. That is something we 
will have to explore for another day. I yield back, Mr. 
Chairman.
    The Chairman. Thank the gentleman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. General Eikenberry, I 
want to direct my questions to you, two quick ones. Some weeks 
ago I saw a press report that some Taliban official was 
announcing the opening of Taliban schools in the south. Was 
that accurate or what is the significance of that? Do you have 
any comments about that? Just one press report I saw.
    General Eikenberry. We think that we found that 
interesting, that the Taliban spokesman indicated that. The 
enemy--the kind of objects, the kind of targets that the enemy 
attacks tells us a lot about the nature of the enemy. The enemy 
over the past several years has attacked schools in 
Afghanistan. They have killed teachers in front of students; 
they have burned schools down; they have threatened parents 
with attacking their children in schools if they attend those 
schools. Why does the enemy attack those schools? It is because 
what the enemy fears is the opening of the mind. This is as 
Islamist extremist, militant, fascist movement and it is 
through the closing of the mind and through intimidation and 
fear that they hope to make gains.
    And so as they look in Afghanistan now at the progress that 
is being made within Afghanistan, the remarkable expansion of 
social services that is occurring, some now six million Afghan 
children in school, two million of those are girls. There has 
been 14 universities opened over the last several years, 
starting from zero with 42,000 students and about 9,000 of 
those are girls. So the Taliban fears this advance because they 
fear then the building of this middle ground of civil society 
and the opening of the mind.
    So it was interesting; we took from that their statement 
that they are going to try to open schools is they wish to try 
to compete against that progress. Now what they teach in those 
schools we would disagree with.
    Dr. Snyder. I appreciate that comment, General. My question 
is are there areas that they consider to be safe enough havens 
that they have the ability to open a Taliban school and to be 
untouched by NATO forces?
    General Eikenberry. Congressman, it is fair that I would 
think in parts of southern Afghanistan there could be remote 
districts where they may be able to do that, but it would not 
be a widespread phenomena.
    Dr. Snyder. My second question, if you could give a brief 
answer so I can get on the third question, when you fly out of 
here and head back to where you do all the good work that you 
do, when you look at money for road construction do you have 
adequate money for road construction tomorrow?
    General Eikenberry. We do for eastern Afghanistan and 
southern Afghanistan if the fiscal year 2007 supplemental that 
we referred to is approved.
    But the international community has to match these U.S. 
efforts. There has to be matching efforts throughout the rest 
of Afghanistan for us to achieve success. Throughout the 
country there is still an inadequate level of physical 
infrastructure investment.
    Dr. Snyder. We have had discussions before this committee 
within the last year, and somebody made a comment that the 
three priorities for Afghanistan ought to be roads, roads and 
roads as a key to economic development; and we are still 
hearing that.
    General Eikenberry, you are one of the real thinkers in the 
military and have an incredible both experiential warfighting 
and academic background. Would you describe the progression of 
your thinking over the last five years with regard to the war 
in Afghanistan?
    I don't think it has progressed like everyone hoped or 
thought it would. I would like to hear what your thinking has 
progressed to. And how do you think we have gotten to where we 
are today and where we are heading; how you see it for the next 
five years?
    General Eikenberry. If I looked back to my first tour in 
Afghanistan in 2002 and 2003 and if I could go back in time and 
be able to, together with the international community and with 
the Afghans, do things differently, what were the surprises 
from that period of time, first of all, I would give four 
things.
    The first would be the destruction that occurred to the 
physical infrastructure was beyond our imagination. We have, 
over time, now begun to address this, but the losses of the 
past 30 years were staggering.
    The second and maybe more profound was the destruction to 
human capital and to civil society in Afghanistan that occurred 
over 30 years of warfare. So you have three generations without 
education. Very tragic.
    And so the challenge of building the state to build the 
institutions of the state, the army, the police force, to build 
good governance, again it is the Phoenix we are trying to 
create, rising from the ashes. There are laws of physics and 
laws of nature. One law of nature is, it takes time to develop 
competent, disciplined, well-educated leaders. And so that is a 
real limit that we are facing.
    The third is the regional nature of the threat. I talked 
about that in the opening statement. We have a challenge that 
has to be more effectively addressed. I know we are working 
hard at that.
    Finally, more of a tactical point would be that we are 
working hard right now to develop the police forces of 
Afghanistan. We have a good, comprehensive program. The program 
as it began in 2002 was internationally led. It was a more 
narrow program that was focused just on training. As a result 
of that--because it wasn't ambitious enough, as a result of 
that, the police force of Afghanistan is several years behind 
the development of the army. We are paying some security prices 
for that.
    Once again, the supplemental that has been proposed, we 
believe with the additional money we have a pretty good program 
structured that over the next several years we could see some 
important improvements in the police forces.
    The Chairman. Thank you, Dr. Snyder.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman. I thank the members of 
the panel and those behind them. I always want to express 
appreciation for your valiant and gallant commitment to human 
freedom.
    General, I know that, at least in my mind, there is no 
enemy that the armed forces of the United States cannot defeat 
on even terms.
    That said, related to Afghanistan and the potential or the 
actual reality of insurgency from hidden protected areas of 
Pakistan and our rules of engagement related to that, if you 
can speak to that outside of the confines here, respecting any 
classified considerations obviously, what challenge does that 
present to the forces of the United States of being able to not 
only protect our soldiers, but to continue the effort to build 
and maintain peace in Afghanistan?
    General Eikenberry. Congressman, I will address two 
aspects, inside of Afghanistan and then the regional aspect.
    First of all, inside Afghanistan the enemy is not strong 
militarily. It is still a problem that the institutions of the 
state of Afghanistan are extraordinarily weak.
    As you have pointed out, wherever U.S. forces and, I 
highlight, increasingly wherever Afghan national army forces 
who are taking more casualties than the NATO and U.S. forces 
are now, as they move to the front line of the fight, wherever 
they engage the Taliban, they defeat the Taliban. It remains 
very much a question of trying to advance the governance into 
ungoverned spaces.
    I believe we are well postured now in early 2007 with the 
additional commitment of U.S. forces and combat power to make a 
big difference in the spring and summer. I truly believe this 
spring and summer it is not going to be a Taliban offensive; it 
is going to be a NATO offensive. However, I also emphasize that 
it was U.S. contributions that made that difference, and non-
U.S. NATO needs to step up increasingly now.
    With regard to the sanctuary issue, that requires that we 
move forward through a cooperative approach with Pakistan and 
with Afghanistan. We have established what we call a military 
tripartite commission with Pakistan and Afghanistan, and now 
NATO has moved up and taken the lead in the place of the U.S.-
led coalition. And we do have very good military cooperation 
with the Pakistani army along the border. We share 
intelligence. We coordinate our operations when appropriate.
    But at the same time, we are still left with areas right 
now in Waziristan and areas inside of Pakistan where our strong 
belief is that midlevel and especially senior level command and 
control of the Taliban and al Qaeda is, it is hard space to get 
into. The Pakistan Government faces the same problem that is 
faced on the Afghanistan side: ungoverned space.
    But our belief is that a combination of a comprehensive 
counterinsurgency approach by the Pakistan Government, which I 
know that President Musharraf and his Administration are trying 
to move forward with, with our assistance, and at the same time 
a steady, direct attack against the command and control in 
Pakistan in sanctuary areas is essential for us to achieve 
success.
    Mr. Franks. Thank you, General.
    Ms. Long, we have heard testimony in this committee that 
essential to winning any war is the ultimate need to break the 
enemy's will in a sense. And, of course, with the ideological 
enemy that we face in Afghanistan, and for that matter almost 
anywhere in the Islamic world, that is a big challenge because 
they look to break our will at home.
    Sometimes it is the water on the inside of the ship that 
sinks us. With that in mind, can you speak to how you think the 
Afghan people are holding up? What is the index of their will 
to prevail to freedom, and how do you think terrorist elements 
in Iraq, or anywhere else, consider our own will and how do you 
think that those dynamics play out in the ultimate end here, 
the ultimate goal here?
    Ms. Long. My understanding from polling efforts undertaken 
under General Eikenberry's tenure in Afghanistan is that the 
Afghan people remain committed to a democratically elected 
government and have the very highest esteem for a central 
government, in concept.
    President Karzai is still popular, and most Afghans are 
looking for a central government, for the infrastructure that 
is being built slowly to better their lives. That is a good 
thing.
    Interestingly, the enemy, as Lieutenant General Eikenberry 
points out, is uniquely good at picking at small cracks in the 
disappointment, perhaps, of the Afghan people, not to see 
economic and development progress to the point where it impacts 
at the individual grass-roots level, to play upon that 
potential disappointment in order to reingratiate itself, and 
also to use fear and intimidation against the Afghan people.
    One of the things that we discuss with our NATO and 
coalition partners is a strengthened effort to communicate 
strategically within Afghan not only what Afghanistan, the 
government itself, is doing for the people, but what the 
coalition and NATO countries are doing. Under Lieutenant 
General Eikenberry there was a great effort to get Afghan 
central leaders, including President Karzai, out to the 
villages to communicate that.
    The Chairman. Mr. Adam Smith.
    Mr. Smith. Thank you, Mr. Chairman. I will ask primarily 
about reconstruction and what the challenges are.
    Following up on Representative Franks' line of questioning 
in terms of how the Afghan population is reacting and where the 
hearts and minds are at, there was a time a few years back when 
the criticism of President Karzai was that he was really the 
mayor of Kabul more than the President of Afghanistan. The 
outlying areas were not getting the support and reconstruction.
    I am curious, from all of your perspectives, how is that 
going in the outer regions? How are the Afghan people 
responding to that? What is their level of sympathy for the 
Taliban? Focus not so much on what the Taliban is doing, but 
the fact that the current government is not providing for us, 
so we are looking at our options; how are we doing on 
overcoming that big challenge?
    General Eikenberry. Congressman, I think we are doing quite 
well. Every poll, every survey of the Afghan people that is 
taken will come back with the findings that well over 90 
percent of the Afghan people reject a return to Taliban.
    Now, you have levels of frustration of the Afghan people 
with their government, but that does not equate to a desire for 
the return of the Taliban. You have areas in southern 
Afghanistan and eastern Afghanistan that were more traditional 
Taliban strongholds where there is sympathy with Taliban.
    There are areas where misgovernance by the Government of 
Afghanistan has probably increased sympathy for the Taliban. 
But very broadly, there is very firm support for the Government 
of Afghanistan.
    I think the Afghan people, almost all of them, believe that 
this is their moment now. They have had an unprecedented degree 
of international support, and they maintain that support, and 
their hope is still very much with the commitment of the 
international community to enable a modern, stable Government 
of Afghanistan.
    Mr. Smith. From an infrastructure standpoint, what are the 
Afghan people most concerned about? Picture it like the local 
city council: The garbage is not being picked up; the roads 
aren't built; there is insufficient security. What are they 
most concerned about? What do we need to address?
    General Eikenberry. In Afghanistan, the answers were always 
the same to the question: What do you need? The Afghan people 
say, ``We need roads,'' because roads permit security and 
social services and they permit an economy to develop.
    Second, they will talk about power. And third, the 
provision of water.
    And social services, the two are always schools and health 
clinics.
    Mr. Smith. Do either of you want to add anything?
    Secretary Gastright. The supplemental request that has been 
submitted and the $653 million that is in the State Department 
side of this supports those priorities exactly. The majority of 
the money is dedicated to roads. We have put additional 
resources into generating power. Six percent of the country has 
access to power; we want to shoot for 40 percent in the next 
couple of years so that we have the ability to generate a rural 
economy that can employ some of these young people.
    There is a saying that Afghanistan is a country that grows 
tomatoes, but imports tomato paste. You can't run a rural 
economy on that that employs the masses of rural youth when you 
grow tomatoes, but import the tomato paste from across the 
border, from Pakistan.
    So those are our priorities. Our resource requests line up 
exactly with what General Eikenberry identified.
    Mr. Smith. Are the Taliban and al Qaeda targeting 
infrastructure in any sort of similar way that they are doing 
in Iraq?
    General Eikenberry. They are not. Interestingly, in 
Afghanistan, they do not target major physical infrastructure. 
There is one exception in Helmand Province where they put 
pressure on a critical dam renovation project. But in the main, 
they have not.
    What they have attacked, they have attacked schools.
    Mr. Smith. Is that because they don't have the capability 
or is it that they are thinking that would alienate the 
population and be counter to their interests?
    General Eikenberry. Our belief is the Taliban thinks it 
would alienate the population.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Joe Wilson, South Carolina.
    Mr. Wilson. Thank you.
    General, Secretary, thank you for being here today. I am 
particularly pleased to note that Secretary Gastright is a 
graduate of the Citadel in my hometown of Charleston, and I 
have a very high regard for the Military College of the South.
    I have visited Afghanistan twice. I was so impressed by 
President Karzai; I have met with him here, and I was very 
impressed by members of their parliament. It is awesome to 
think that they have had the first free elections in the 
several years of civilization that have existed in that region.
    Additionally, I was very impressed--I visited a provincial 
reconstruction team, U.S. and Korean. I saw firsthand efforts 
being made, working with local government officials, and I also 
had an extraordinary opportunity to fly out to Khowst to a 
forward operating base, Salerno. I was startled to learn there 
was a university in Khowst, I certainly didn't anticipate that, 
and to hear there are 42,000 students now in colleges and 
universities. That is a remarkable achievement that I wish the 
American people knew.
    Additionally, I look forward to working with you. I am the 
cochair of the Afghanistan Caucus with Congresswoman Jackson 
Lee and so we look forward to working for the betterment of the 
people of Afghanistan.
    Additionally, I have a very particular interest in 
Afghanistan in that the South Carolina Army National Guard, the 
218th Mechanized Infantry Brigade, is in training today at Fort 
Riley and Camp Shelby in preparation to serve in Afghanistan to 
work with the Afghan army and help train the army. I was in the 
218th for 25 years, so I know of the wonderful, capable people 
of that brigade. They are looking forward to serving.
    What I would like to know is, are the efforts of training 
the army and police making progress? What more needs to be 
done?
    General Eikenberry. Congressman, first I would say that I 
am honored to be flanked by two Citadel graduates.
    If I could say, first of all, about the 218th, sitting 
behind me is Major General Bob Durbin. He has been in command 
of the headquarters in Afghanistan, the U.S.-led headquarters 
that is responsible for the training and equipping of the 
Afghan national army and provides a lot of support to the 
police.
    Major General Durbin just visited Fort Riley and had an 
opportunity to see the 218th, and he reported yesterday that 
they are doing extraordinarily well. We are looking forward to 
them deploying to Afghanistan.
    Our main line of mission in Afghanistan is the development 
of the Afghan national army and police. How are we doing at 
that task? I think we are doing reasonably well at that task. I 
gave some statistics in my opening remarks.
    With the supplemental that has been requested, I think we 
can make a lot more progress. The Afghan national army over the 
last several years, under the leadership of Minister Wardak and 
their chief have really worked hard in improving leadership. 
They are at that point right now where with higher levels of 
equipment, better kinds of vehicles, they are going to be able 
to take these on now. Their forces are going to be able to 
operate and maintain them, and they need this equipment in 
order to fight side by side and, increasingly, to lead the 
fight.
    On the Afghan national police, it is tougher going. As I 
mentioned, a comprehensive effort to reform the police did not 
begin until late 2005, and over that four-year intervening 
period, the police force of Afghanistan established its own set 
of business practices which are not necessarily good.
    We are trying to reform an organization which has been in 
existence for four years. On the other hand, there is a very 
good commitment from the Afghan political leadership to police 
reform. President Karzai's Administration very recently made a 
decision where 40 senior police chiefs, who were really, 
frankly, unqualified for the task of being police chiefs in a 
modern state, were replaced.
    So they are showing signs of stepping up to do their part 
of the bargain which is to provide good leaders. And meanwhile, 
our end of the bargain is, given that, provide good training 
and equipment and facilities and support.
    Mr. Wilson. I share your view of General Wardak. I met him, 
and I was very impressed.
    What is the success of recruiting and retention in 
Afghanistan? Are their sufficient troops, persons available?
    General Eikenberry. We have sufficient recruits available 
for the army and sufficient recruits available for the police. 
The challenge has been retention of those forces. We have made 
pretty good progress, and I give great credit to Minister 
Wardak and to General Durbin behind me here for the great work 
that has been done.
    When General Durbin assumed command, the absence rate of 
the Afghan National Army was about 25 percent. Unacceptable. 
With good leadership reform and hard work by our forces, the 
absence rate now for the Afghan National Army is down to about 
12 percent. We need to get it lower, but very significant 
progress.
    The police, with the reform that is ongoing, I think we are 
also going to achieve better results in recruiting in that 
area. There is pay reform right now in the police, which is 
really helping, and I think we are going to do a lot better in 
the area of retention, but it is going to be slower than the 
rate of success we are having with the army.
    The Chairman. Thank you.
    Mrs. Tauscher.
    Mrs. Tauscher. General Eikenberry, Secretary Long and 
Secretary Gastright, thank you for your service.
    I was in Munich this weekend at the security conference; 
lots of NATO countries and lots of our supporters in 
Afghanistan were there. I think that there is a heightened 
sense of immediacy to the fact we had better get it right this 
spring. We have gotten jumped the last two springs, the largest 
poppy crops ever grown, each year beating the last. But the 
idea of an offensive that we know is coming with the better 
weather and the opportunity for the enemy to come out of the 
Pakistan hills is obvious. It had better be our offensive 
because there is an offensive coming.
    It is impressive to see how much dovetailing there is in 
your testimonies, and that makes me feel more comfortable about 
the interagency process.
    My first concern, twofold, al Qaeda, Taliban. These terms 
are meshed together a lot. I consider the Taliban to be the 
indigenous version of the terrorists that ran Afghanistan and 
enabled it to be a platform from where the September 11 attacks 
were launched on the United States.
    Can you, General Eikenberry, give us a sense for what the 
current definition and what the distinctions between Taliban 
and the al Qaeda are?
    And, second, I want to know about Pakistan. If we do not 
have a better engagement with Pakistan, and if President 
Musharraf does not begin to step up more in these ungovernable 
territories, in the tribal territories in the western part of 
Pakistan and the eastern part of Afghanistan's border, it is 
going to be difficult if there is a place for people to hide 
and secrete themselves and rearm and regenerate themselves. It 
is going to be continuously hard for us to deal in the last 
offensive we hope to have, which is this spring.
    I understand that President Karzai and President Musharraf 
right now are not talking to each other, very little 
cooperation. I know Secretary Gates was there yesterday trying 
to get this to be a little better. But both of these gentlemen 
are in terrible political situations themselves. Both have been 
attacked and have had assassination attempts.
    Can you give us a sense of how you think the Pakistan-
Afghanistan relationship is going?
    General Eikenberry. Representative Tauscher, I would first 
say with regard to al Qaeda and the Taliban that there is a 
symbiotic relationship between them, a complex cooperative 
relationship. I will give you one example. For instance, the 
Afghan Taliban leader Hakimi who was in Waziristan, in 
Pakistan, they direct attacks against Afghanistan. They also 
direct attacks against the Pakistan military.
    At the same time, we see a relationship between them and 
foreign fighters. I would say over the last several years as 
some of the Taliban senior leadership has been able to 
reorganize itself, we have seen closer cooperation between the 
foreign fighters, the al Qaeda network, and the Afghan militant 
leaders.
    Mrs. Tauscher. Is the Taliban, the Afghan version, almost 
the beachhead in Afghanistan for al Qaeda, and are they a 
fungible version? Are they virtually the same?
    General Eikenberry. No, they are not. The extremist Taliban 
movement is focused on Afghanistan. The al Qaeda, the 
international movement, the aid-and-abet Taliban, international 
terrorism, I think their view is that the modern jihad was born 
inside of Afghanistan against the Soviets, and it has mutated 
since that time and become international and very deadly.
    But international terrorists wish to maintain their 
presence inside of Afghanistan and Pakistan. They have no good 
options if they move out of that area. In that regard, Taliban 
provides a kind of assistance to them and security. They help 
with the training of Taliban and with the financing. But the 
international network that exists in that part of the world, 
their focus is global.
    Congresswoman, the first thing I wanted to say with regard 
to Pakistan in terms of level of effort, let me make clear that 
over the last four years, the Pakistan army has had far more 
soldiers killed in combat against the same enemy who is 
attacking U.S. forces, NATO forces, and Afghan forces.
    Mrs. Tauscher. If I can ask General Eikenberry to give us 
something in writing off the record, I would appreciate that.
    The Chairman. If the gentlewoman would follow through on 
that.
    Mr. Hayes.
    Mr. Hayes. General Eikenberry, Secretary Long and Secretary 
Gastright, thank you for being here today.
    I visited you in theater not that long ago. Adam Smith, he 
and I were down in Fort Bragg, the epicenter of the universe, 
and we visited with your teammate, Colonel Reeder, just a 
couple of days ago. I was with the colonel, Joe Wilson, on a 
recent trip.
    There have been remarkable changes from the time that the 
chairman, Mr. Skelton and I were there with Ms. Pelosi a couple 
of years ago. It is remarkable what you and the men and women 
who serve have done; and to kind of cap that feeling off, to 
have members of the newly elected Afghan parliament appear in 
the gallery of U.S. House of Representatives and see how we 
conduct business. I am not sure what they took away from that, 
but that is remarkable, what you have done, and I hope people 
realize how important it is.
    For a moment, as a general, as a man who has seen it all in 
theater in Afghanistan, help remind people what the enemy 
really looks like and help remind people that this is a war. It 
is not a political action or something that we are doing just 
because we want to keep our military busy.
    But describe the enemy. Just pick a situation that you may 
remember. Joe talked about Khost. We saw in the newspaper a 
couple of days that Colonel Nicholson, there was some question 
about where artillery shells were landing. I didn't see any 
fences over there, so it is kind of hard to tell, but just 
remind people what the enemy looks like. If they are coming in 
from Waziristan, what would their tactics be if they captured 
somebody?
    General Eikenberry. I think, Congressman, to give several 
examples, we are against an enemy that about six months ago, it 
fired rockets into a school in Asadabad and killed eight 
schoolchildren in order to try to intimidate the parents and 
shut the education down.
    It is an enemy that took an uneducated young man with no 
hope, no employment and trained him to be a suicide bomber, and 
then to attack one of the greatest governors of Afghanistan, a 
patriot living in Australia who came back to Afghanistan with 
no more dream than to help the Afghan people recover from this 
brutal occupation and civil war, and they jumped onto his 
vehicle to kill him and intimidate the Afghanistan people.
    That is the nature of the enemy we are fighting. It is an 
enemy that seeks to intimidate and impose its stark ideology on 
Afghanistan. If they succeed, the United States is at risk 
again.
    Mr. Hayes. I think it is important again to emphasize what 
we are up against. It is not conventional rules of engagement. 
These are terrorists.
    We talk about expanding the government and projecting it 
outward, which is vitally important in Afghanistan. But as far 
as I can tell, the enemy would love to project their reign of 
terror, fear, killing, beyond Afghanistan.
    Let's just say hypothetically, we turn Afghanistan over to 
them. Would that satisfy them? Would they stop there?
    General Eikenberry. No, they will keep moving. We can walk 
away from Afghanistan. If we walk away from Afghanistan, the 
terrorists will follow us to the United States.
    Mr. Hayes. I wish people could have been with Joe Wilson 
and me, as were others that night, on the top of the United 
States embassy having a meal with these legislators. It was 
reminiscent of a county commission meeting because here were 
these elected officials with cell phones communicating with 
their provinces, ``We have a problem over here; how are we 
going to fix it?'' again, progress is happening.
    One last thing, the revenue in Afghanistan, people have 
talked about roads. Their only tax is on trade. So if there is 
no road there is no trade; there is no border and no duty, and 
they can't support education, police and so on and so forth. So 
again, given the chance, people know what the enemy looks like. 
They would love a crack at us as well.
    General Eikenberry. Congressman, I agree. The nature of the 
enemy, all they have to do is get through and kill a teacher. 
How long does it take us to build a school and train a teacher? 
So it is a tough war that we are in, and it is back to time, 
patience and commitment; but if we give it to the Afghans, they 
will prevail.
    Mr. Hayes. And doesn't bother them at all to kill that 
teacher.
    The Chairman. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank each of the panelists for their testimony and for 
their service to our country. It is truly appreciated.
    Secretary Long, in your statement you note that both 
Afghanistan and Pakistan must cooperate against extremists in 
both countries to end the insurgency in Afghanistan and to 
reverse increased extremist influence in Pakistan. And you then 
go on to describe the trilateral dinner agreements.
    If Pakistan were to be doing everything we wanted it to do 
to help defeat the terrorist activity, what would that be? What 
are they failing to do today that we want them to do?
    Ms. Long. I think, as General Eikenberry pointed out, I 
would like to preface my comment by the reality that Pakistan 
has suffered more casualties as a result of its assistance 
against insurgents than arguably any other force. And in fact 
on a daily basis, Pakistani military, frontier corps, and other 
related organizations, border guards, are striving to close the 
border and to contain the insurgents.
    One cannot answer that question without being a realist 
regarding the Pakistani domestic political situation. President 
Musharraf has a dynamic and diverse political constituency of 
many different parties and many different tensions. There are 
Pakistani elections coming up next year, and he is walking a 
tightrope, as we see in all of these developing countries, with 
many different voices speaking loudly. That is the nature of a 
messy democracy and one that we should continue to support, 
much like our own.
    In a nutshell, the continued participation of Pakistan in 
the tripartite is going to be valuable, particularly as NATO 
assumes a growing role in that organization.
    Border arrangements along the east, and in particular in 
northern Waziristan, need to be tightened and increased.
    I think you have heard both Afghanistan and Pakistani 
leaders talk about sealing the borders. In Quetta, we are 
concerned regarding the Taliban and other leadership that are 
in Baluchistan and other tribal areas, who continue to manage 
and direct Taliban and al Qaeda activities. Activities against 
those will be needed. Any shuras the Taliban are continuing to 
drain, madrassas and camps, particularly those camps in the 
tribal and federally administered tribal areas (FATA) areas, we 
will need action against those.
    Mr. Andrews. I very much appreciate the specificity of your 
answer. Thank you.
    This committee has responsibility for and authority over 
some significant military relationships between our country and 
Pakistan. We value those relationships; we want them to 
continue. But frankly we would like to use whatever influence 
we have to try to move the Pakistanis closer toward the goals 
you have enumerated. I say that in full recognition of the 
sacrifices that Pakistan has made and the acute difficulties 
President Musharraf faces, but I do want to know where the goal 
line in.
    Secretary Gastright, you used an interesting phrase, that 
``Afghanistan grows tomatoes, but imports tomato paste.'' if 
the optimal result were to occur in the economic development of 
Afghanistan over the next five years, what would Afghanistan's 
principal exports be?
    Secretary Gastright. It is going to be a rural-based 
economy for years to come. A large segment of the population is 
based on some form of agriculture. But really agriprocessing is 
the next step in this process where they can do light 
manufacturing and export those things out of their country on 
the new roads that we are trying to build.
    Mr. Andrews. Collectively, are you satisfied that we are 
properly emphasizing in our development aid technology an 
infrastructure that will help develop that agriculture 
potential? And are we investing in the right industries in 
Afghanistan to help achieve that result?
    Secretary Gastright. Again, it is more foundational than 
that. It is really, develop the roads so the farmer can get his 
crops to market before they turn into mush. It is, develop the 
power system so there can be cold storage so it can be properly 
packaged and shipped out.
    Mr. Andrews. One question for the record: I would ask if 
the witnesses could submit their data on the cost of training 
Afghani military personnel and police personnel, submit that to 
us for the record. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 78.]
    The Chairman. I thank the gentleman.
    Before I call on Mr. Turner, I must leave the chair to 
repair to the Chamber, and I will ask Mr. Marshall to assume 
the gavel, if I may. We will have in the near future two votes. 
I would hope that we could resume after those two votes.
    Excuse me, there are four votes. I hope that the Chair 
under Mr. Marshall's gavel can resume the hearing subject to 
the witnesses' availability.
    Mr. Turner.
    Mr. Turner. Thank you.
    I want to thank you for your hospitality when I visited 
Afghanistan in August. I had a gentleman from my office who, 
when we invaded Iraq, got up from his desk and went and signed 
up for Special Ops training and was ending his first tour in 
Afghanistan, and you were kind enough to assist me in meeting 
up with him in Konar Province. I appreciate your assistance in 
doing that.
    I learned a great deal about the operations that were 
ongoing and our efforts in training the Afghan national army, 
and the issues that you raised when I was there continue to be 
issues raised in this hearing.
    I understand the number of casualties that Pakistan has 
sustained. It certainly shows a level of commitment. 
Nonetheless, when I was in Afghanistan, one of the issues and 
concerns that was raised was the border of Pakistan being a 
sanctuary. If we are pursuing individuals and they cross over 
to Pakistan, our ability to continue their pursuit and/or to 
receive assistance from the other side, how that can be both an 
impediment for us; and if there is not appropriate action that 
is being taken on the other side, it can exacerbate the 
difficulty of our pursuing and holding accountable those who 
are trying to disrupt Afghanistan.
    The second item that was raised is the support that you 
need in order to continue your operations, specifically those 
that come from unmanned aerial vehicles. The Iraq drain 
certainly has an impact on the resources that have been 
available to Afghanistan and how you see that trending or what 
you see needs to be done.
    I want to echo the thanks for the service of each of you in 
what is clearly a very important task that you outlined for us. 
It is not just the issue of Afghanistan; it is an issue of the 
war on terror and our efforts to be victorious.
    General Eikenberry. Congressman, on the cross-border issue, 
I would like to make clear--and I think you understand this--
our forces have the necessary authorities that are required, 
that when we come under threat regardless of where the threat 
comes from, that we have the necessary authorities to protect 
our forces and to attack.
    In fact, we have very good cooperative relations with the 
Pakistan military along the border. We share common radio 
systems. We meet frequently. We have good protocols that have 
been established. So along the border itself, we are reasonably 
confident that we have a good, cooperative approach and we 
certainly have the necessary authorities.
    The nature of the threat that we are talking about when we 
talk about command and control is located not directly along 
the border area, and I should probably not go much further than 
that in talking in this open forum about that.
    I would be ready, of course, Congressman, in another forum 
to answer any questions if you wanted to go into in more 
detail.
    Mr. Turner. Is that different than in August?
    My impression in August was, there was a concern with the 
issue of the border of Afghanistan representing a sanctuary 
where troops that were fighting can go and restock and rest and 
receive retraining, then only to come back again; and that lack 
of cooperation did impact our ability to be successful.
    General Eikenberry. No, let me clarify what I said, 
Congressman.
    That the enemy is able to move across the border. It is a 
very difficult border to control. And so the enemy does come 
from areas deeper inside of Pakistan and they can project 
across that border.
    I was talking in the border area itself when our forces are 
under threat. But the threat itself does not sit right at the 
border area; the threat sits off of the borders. Our ability 
when we are in direct contact with the enemy or under threat, 
we fight effectively. We have the necessary authorities and we 
coordinate well with the Pakistani military. But the nature of 
that threat sits farther back.
    Mr. Turner. I understand. Thank you.
    General Eikenberry. Second, with regard to reconnaissance 
capabilities and our intelligence gathering, I think every 
commander in the field in today's world would tell you they 
need more of what we call persistent ISR, or intelligence 
surveillance reconnaissance, capabilities, especially a 
capability like the Predator. No commander has enough of it. 
Sure, we could use more of it in Afghanistan.
    The second shortfall that I think we all face is capability 
to exploit some of the intelligence that we gather. Here in 
particular I am talked about trained Pashtu linguists who are 
capable of listening in on the Pashtu language and the Dari 
language, and that is a shortfall we still face today.
    Mr. Turner. Thank you. I yield back the balance of my time.
    Mr. Marshall [presiding]. We are going to have to break for 
votes. I think Mr. Skelton intends that we get back together, 
and I am going to have ask, do we have an estimate when votes 
will be over with? It is certainly not going to be before 
12:30, would you say?
    I don't think we will reconvene before 12:30. Maybe that 
gives you an opportunity to grab something to eat and come back 
in. I don't know how many people will be coming back. I think 
there will be some additional questioners.
    General, first of all, I very much appreciate the time we 
have spent together on different occasions and how candid you 
are and how thoroughly you understand what is going on over in 
Afghanistan. And I appreciate the service of all of you.
    General Eikenberry, on page five of your testimony you have 
got a very interesting and perhaps troublesome paragraph. You 
describe the long-term threat to campaign success is the 
potential irretrievable loss of legitimacy of the Government of 
Afghanistan. You say, ``The accumulated effects of violent 
terrorist insurgent attacks, corruption, insufficient social 
resources and growing income disparities, all overlaid by a 
major international presence, are taking their toll on Afghan 
Government legitimacy. A point could be reached at which the 
Government of Afghanistan becomes irrelevant to its people and 
the goal of establishing a democratic, moderate, self-
sustaining state could forever be lost.''
    I won't read more of your testimony, but I have the 
impression that you think that is imminent and could occur 
fairly soon. I guess, you know, it causes me to think about the 
history of counterinsurgencies and that is essentially what we 
are in right now.
    That history of counterinsurgencies is one that suggests 
that these things take a long time to deal with. It is not a 
one- or two- or four-year process, it is a 10- or 15-year 
process. And it does appear as if the Taliban and al Qaeda, 
particularly the Taliban, are determined here, that they are 
not going to back off, and that they are resurgent in a sense.
    I am wondering whether or not we have got here--and I would 
like your opinion about this--we are facing a situation in 
which the government shortly is going to lose its credibility 
and then, if what you say is correct in this paragraph, we are 
going to lose the ability to win this conflict.
    We tend in our conflicts generally to move too quickly, to 
try to do too much too fast. I had the impression in 
Afghanistan we weren't doing that, we were moving along in due 
course and we weren't creating a whole bunch of vacuums, for 
example, and we were prepared to rely upon local warlords, or 
jirgas, and what have you, and not simply say they are all 
gone, we have one fiat, and it is the Afghan Government, and 
Karzai is more than just the mayor of Kabul.
    Can you talk about that dilemma, that we have vacuums and 
we do have an insurgency and they typically take a long time, 
and yet you have this problem of the government's credibility 
facing us?
    General Eikenberry. Congressman, several years ago we 
captured a Taliban commander and when he was being 
interrogated, the commander was saying that the Americans wear 
watches, but the Taliban has time. This question of time, 
patience and commitment, generational kind of effort, I think 
that is understood by all of us.
    I want to clarify, when I talked about the longer-term 
threat, I am not talking about imminent here, I am talking 
about three, four or five years from now. The reason I 
highlight that is because I think we are making great progress 
in many domains, especially in the Afghan security forces. We 
are making progress, as I indicated, just through the 
statistics that we have provided in terms of aspects of 
governance and the development of social services and economic 
reconstruction.
    I think the areas that do need to be addressed urgently, 
because if you address them urgently you do not start to 
translate urgent address into effects on the ground for a year 
or two years, is in the area of a comprehensive justice system.
    Police are inadequate; police are one component of a 
justice system. We talk about cops, courts and correctional 
institutes. We have a pretty good system right now for the 
delivery of police. We need a complementary effort over the 
longer term that starts to deliver courts and starts to deliver 
correctional institutes.
    Governance is another instance. We have a great training 
program for Afghan National Army and Afghan National Police. We 
don't have a complementary program yet from the international 
community for the training of Afghan governance.
    And then the final area that I have already highlighted is 
within the area of counternarcotics. A lot of effort is being 
applied in trying to pull together the very strands of the 
counternarcotics effort in a coherent manner, and that still 
remains a challenge for us.
    Mr. Marshall. Thank you, sir.
    We are going to go ahead and adjourn until 12:30. It may be 
a little after 12:30, but certainly you have until 12:30.
    [Recess.]
    Mr. Marshall. Call the meeting to order again, the hearing 
to order again. I will note for the record that both the Chair 
and the ranking member are from Georgia, so I am pleased to 
recognize Mr. Gingrey. I think it is your time for questioning.
    Dr. Gingrey. Mr. Chairman, thank you, and thank you for 
acknowledging the fact that we have got the opportunity for two 
Georgia peaches up here at the same time. Of course, I would 
like for the seats to be reversed, but be that as it may, I 
appreciate the Chairman recognizing me.
    Let me thank our witnesses, Madam Secretary, Secretary 
Gastright and, of course, General Eikenberry. Your patience for 
being with us and for returning, and you have done a great job 
this morning, and I know the hour is getting late, so I 
appreciate that.
    General Eikenberry, I think I will confine my questions to 
you, and I have got two questions. The first, in regard to 
Operation Medusa, back in August of 2006, in which NATO ISAF 
forces removed the Taliban fighters near Kandahar and the 
British forces then entered into a peace agreement with local 
tribal leaders whereby the tribes would secure the main town 
absent NATO.
    So our forces essentially, as I understand it, went in, 
they cleaned house, and they left the local tribesmen to keep 
order. Doesn't this seem counter-intuitive? And how were the 
British forces able to unilaterally enter into this agreement? 
I mean, they are working under NATO, this is a NATO ISAF force, 
and I am sure a cohesive force, but what gives some countries 
the opportunity to operate on their own accord if indeed this 
was the case? That is the first question I wanted to ask.
    Second, President Karzai has expressed an interest in a 
long-term United States military presence in Afghanistan. Do 
you think a long-term U.S. and/or NATO military presence is 
required to attain security and stability in the country? And 
if so, for how long? You hear that often; I am sure you have 
been asked that before. What are the criterion for determining 
when the Afghan national security forces are capable of 
independently maintaining security and stability?
    So if you want to take the last one first and then go back 
to the question about what happened in Operation Medusa.
    General Eikenberry. Thanks, Congressman. With regard to the 
presence of the international military forces, U.S. forces, 
success in Afghanistan is going to be measured over progress 
one year at a time, and there is much that remains to be done. 
What I would say, though, in terms of defining the levels of 
our presence, the key condition will be the progress that the 
Afghan national security forces make, the army and the police 
forces. And therein, going back to the request for the 
supplemental, this $5.9 billion requested for fiscal year 2007, 
we believe very firmly that with that kind of investment and 
then, in fiscal year 2008, about another $2.7 billion 
investment, that the Afghan national security forces will start 
to advance to a point that, whereas currently they have to 
remain very tethered to coalition forces because we have so 
many of the capabilities that any military needs to fight that 
they don't have yet, our sense is they will advance to a level 
that, beyond that point, we can start to adjust our forces and, 
very importantly, we start to save a lot in terms of operating 
expenses.
    It costs about $15 billion a year for us to maintain our 
U.S. forces in Afghanistan. So look at this as a good trade.
    Congressman, beyond that, beyond that next several years, 
we are still going to, I believe multiyear beyond that, have to 
look at a significant presence of trainers and mentors for the 
Afghan national security forces. Ultimately those levels are to 
be decided by of course the government of Afghanistan in 
consultation with us.
    Now if I could turn to what you referred to about the 
combat operations in southern Afghanistan. I know I don't have 
much time. Briefly, the first operation you talk about, 
Operation Medusa, that was primarily a Canadian, U.S., Afghan 
national army police operation in southern Afghanistan, 
successful combat operation, but there was an inadequate plan 
to maintain security past the operation it conducted. Frankly, 
that is a challenge that U.S. forces have had, lessons that we 
have had to learn over time, so it was a good operation, but 
there was an inadequate security perimeter that was placed out, 
and then that forced NATO to have to go back in, but successful 
combat operations.
    The agreement that you are referring to with the British 
forces in Helmand Province was centered around a town named 
Musa Qala. That was an agreement that was done in consultation 
with the government of Afghanistan, the terms of that agreement 
appear now to have been broken, clearly, by the Taliban. And I 
think that appropriate actions look like they will be taken by 
the government of Afghanistan with NATO support now to deal 
with that security situation.
    Dr. Gingrey. Thank you. Thank you, General.
    I yield back, Mr. Chairman. Thank you.
    Mr. Marshall. I recognize the gentlelady from California, 
Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman, and thank you to all of you for being here and 
certainly for sticking with us this afternoon. I wanted to 
follow up on Mr. Marshall's question, really, looking at some 
of I think your words, General, and I can understand what you 
said is that, while there is great concern about the people's 
ability or their confidence in their government, that this is 
really a longstanding issue and one that may not be resolved in 
the short term but at least has room to grow, if I am 
characterizing that correctly. I appreciate that.
    I was wondering if you could help us, though, and perhaps 
even the other witnesses to understand and sort of characterize 
that, what we call winning the hearts and minds of the people 
there and their ability to, I think, sustain some of the 
activities that are going on and to push back against those who 
would bribe them for not cooperating. There was a story on, I 
think, CNN last night about an aid worker who was suggesting 
that. How would you characterize that?
    Are we able to gain intelligence from local people, and are 
we being as smart as we can be in working with some of the 
local warlords, recognizing that there are issues, such as the 
drug trade, that get in the way of some of that activity?
    General Eikenberry. Congresswoman, what we have learned 
over time and now over six years in Afghanistan is that key to 
success is a sequential approach moving into what I have 
characterized this morning as this ungoverned space. The first 
is to contact local leaders. We have talked about shuras, 
tribal leaders, the leadership with Afghan character, unique 
Afghan characteristics, and talk to them about what the needs 
are in their areas.
    What they will always come back with if they are threatened 
by criminal elements, extremists, their question is going to 
be, are you going to stay when you come into the area? That has 
been a lesson we have learned over time, and now I think we are 
very firm in our doctrine.
    So if you can convince the people you are going to stay 
with good security, then their next question is then, how will 
you differ from the extremist elements? How will you differ 
from the criminal elements? And that gets to provision of good 
government social services.
    Ms. Davis of California. Are we aware of that or is it true 
that the general population is being bribed to not cooperate?
    General Eikenberry. Congresswoman, in places where the 
extremists are trying to gain influence, have influence, they 
are being intimidated to not cooperate, and that gets back to 
the first question the people always have, if you come into the 
area, are you going to stay? Because if we don't stay, and 
leave, then people will be murdered for cooperation with the 
government of Afghanistan.
    So I think we have got the right approach right now. We 
always need more means in order to deliver back to the non-
military means. Roads, the delivery of roads and a health 
clinic can be more decisive than an infantry battalion of 
Afghan National Army or U.S. forces.
    I use the term, though, about hearts and minds, et cetera, 
that for us, the international military force, the U.S., our 
center of gravity in Afghanistan is actually with the 
government of Afghanistan, trying to help them develop a 
government that in turn allows that government to affect the 
hearts and minds of their own people.
    Ms. Davis of California. If I could turn to a follow-up 
question on the interagency cooperation as well. We certainly 
have had some experiences in Iraq that differ, I hope, from 
those in Afghanistan with our provisional response teams there 
as well. How have we then found the skill sets available, 
whether it is in the State Department, the aid community, to be 
able to raise the level, I think, of confidence of the people 
that we are dealing with there? What has been different? Do we 
have linguists in the area that are actually able to 
communicate directly? And what more should we be doing to 
enable that program really to be as strong as necessary?
    General Eikenberry. Congresswoman, the amount of 
interagency cooperation we have in Afghanistan is 
unprecedented, excellent teams that we form between the 
military, the State Department, the Central Intelligence 
Agency, the USAID. The challenge we have in Afghanistan is 
that, when we talk about this kind of special expertise that is 
needed for reconstruction and development for government 
programs, there we have shortages.
    We need more agricultural experts, we need more justice 
experts. I can go on. So the ability to develop an 
expeditionary capability, so to speak, within our government 
that can deliver----
    Ms. Davis of California. Is it because people aren't able 
to or willing to be there to answer those needs? What is the 
problem?
    General Eikenberry. I think there is a shortage of the 
available expertise to deploy.
    Ms. Davis of California. Thank you.
    Mr. Marshall. Let me move to Mr. Ellsworth from Indiana.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you all of the witnesses for being here today. I will 
jump right into the questions. General Eikenberry, there is a 
little bit of talk going on this week about surges and upping 
the troops. My question to you will be very direct: If you had 
the sole say, would we surge troops in Afghanistan to combat 
what we are hearing is the Taliban, al Qaeda, making a 
stronghold or increasing themselves there? And should we, could 
we, might we expect a call for a surge in Afghanistan in the 
near or the next couple of years?
    General Eikenberry. Congressman, the decision that was made 
by the President and the Secretary of Defense to extend the 
presence of a brigade of infantry of the 10th Mountain Division 
which was due to redeploy back to the United States now but is 
now being extended for 120 additional days even while their 
replacement forces arrive on schedule will make a profound 
difference in NATO combat capabilities over the next several 
months.
    There is further consideration now being debated over even 
a further extension of forces or additional forces over that 
120-day period, not the same brigade, but that will make a very 
significant difference. I believe that it will give the NATO 
commander the amount of forces that he needs to deal very 
effectively against the threat, indeed will allow him to 
conduct offensive operations.
    But I will say, as I said again this morning, that is a 
commitment that is made by the United States, not U.S.-NATO 
forces. Additional non-U.S. NATO forces and capabilities are 
required in Afghanistan consistent with the political 
agreements that NATO has made and made last year to provide 
forces and capabilities to levels that they have not achieved.
    Mr. Ellsworth. Thank you. All three of you talked about and 
voiced support for the supplemental increase. My question, in 
my short time here in Congress, I have been talked to by 
several members of the armed forces talking about shortages in 
equipment; planes that we can't fly at top speed, boats, 
submarines. A variety of equipment. And yet we all talk about 
the supply.
    Seems so many of these relationships are based on dollars. 
Haven't we experienced that--I support the foreign aid, but how 
many of these friendships have we seen that ended after our 
dollars ran out or that they have turned and used those dollars 
after we have supported them with billions of dollars, turned 
against us once the checkbook closed? I would appreciate a 
comment on that, please.
    General Eikenberry. Well, I can only talk about the 
investment that we are making, Congressman, here inside of 
Afghanistan. It is in our vital national interest to succeed in 
Afghanistan. Failure to succeed in Afghanistan would permit a 
return to the state that Afghanistan existed before our 
homeland was struck on 9/11, struck by an enemy that occupied 
90 percent of Afghanistan, enjoyed open sanctuary there and 
plotted the attacks against our homeland in the United States 
of America.
    So we have a firm alliance with the Afghan people, with the 
Afghan leaders, and I believe that we are achieving great 
progress there, and I have every bit of confidence in the years 
ahead that the Afghans will be very strong allies of the United 
States of America.
    Mr. Ellsworth. I would only add to that that with the 
reports we get on accountability and weapons coming up missing 
and just that we do due diligence to keeping those weapons in 
our hands and in our friends' hands and not to be turned 
against us. I would yield any time, unless you have a comment 
to that.
    General Eikenberry. Thank you, Congressman.
    Mr. Ellsworth. Thank you very much.
    Mr. Marshall. The gentleman from the great State of 
Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Thank you all for 
your service to your country and also for appearing here today. 
Today, the testimony was that we have made tremendous progress 
in Afghanistan over the last six months. However, at a January 
30th briefing here at this committee, Ambassador Karl 
Indurfurth stated in his testimony, quote: Half measures in 
Afghanistan by the United States and the international 
community are failing to provide security, rebuild the country, 
or combat the exploding drug trade. They are also threatening 
to undo what progress has been made since U.S.-led military 
forces toppled the Taliban from power in 2001. Indeed, much has 
been accomplished since the Taliban were overthrown, but it is 
also true that Afghanistan is still very much at risk. The 
Taliban and their extremist allies have made a powerful 
comeback, especially in the eastern and southern parts of the 
country. Afghanistan remains the world's leading drug supplier 
of opium. Corruption is on the rise. And many Afghans are 
asking, five years after the international community arrived, 
where are the promised roads, the schools, the health clinics, 
the electricity, the water? U.S. and NATO officials are 
predicting heavy fighting in the spring and say that 
Afghanistan is facing a bloody year in 2007.
    I am paraphrasing Ambassador Indurfurth's statement. And 
also, Ambassador James Dobbins in his statement to this 
Committee on January 30th said that Lieutenant General Karl 
Eikenberry the senior U.S. commander in Afghanistan reported in 
early 2007 that the number of suicide attacks had increased by 
more than 400 percent, from 27 in 2005 to 139 in 2006; remotely 
detonated bombings had more than doubled, from 783 to 1,677; 
and armed attacks nearly tripled, from 1,558 to 4,542. This 
violence led to more than 4,000 deaths in Afghanistan last 
year. Last year was by far the bloodiest year in the country 
since 2001. Today the Taliban has infiltrated villages in the 
south and east of Afghanistan and are expected to mount major 
operations in Kandahar, Helmand and other provinces this 
spring. Their ability to use Pakistan as a sanctuary has been 
critical. Interviews with U.S., NATO and U.N. forces indicate 
that the Taliban regularly ship arms, ammunition and supplies 
into Afghanistan from Pakistan. Most suicide bombers came from 
Afghan refugee camps located in Pakistan. Components for 
improvised explosive devices are often smuggled across the 
Afghan-Pakistan border and assembled at safe havens in such 
provinces as Kandahar. The degree of official Pakistani 
complicity in this insurgency is a matter of some controversy. 
Speaking in private, knowledgeable U.S., NATO, Afghan and U.N. 
Officials are nearly unanimous in asserting that the Pakistani 
intelligence service continues to collaborate with the Taliban 
and other insurgent groups operating out of its border regions.
    Having said all of that, I want to ask a question: Did the 
huge focus of U.S. political, military and economic support in 
the war in Iraq necessarily divert attention away from 
Afghanistan. And the second question is, what are we doing to 
ensure that Pakistan is not doing what we accuse the Iranians 
of doing, and that is arming our foes.
    Ms. Long. I think that we would agree that many of the 
problems that you articulated from Ambassador Indurfurth and 
Mr. Dobbins are continuing problems, and we have tried to 
outline those problems in our statements. That is not to say, 
however, that Afghanistan hasn't made terrific strides in the 
last six months.
    Mr. Johnson. Does the war in Iraq divert our attention?
    Mr. Marshall. Use the microphone, Mr. Johnson.
    Mr. Johnson. I am sorry. Did the war--did we divert our 
attention and resources away from Afghanistan into the war in 
Iraq at the peril of the war in Afghanistan?
    Ms. Long. No, Congressman, we did not. In fact, the program 
and programmatics in Afghanistan have been in compliance with 
the campaign planned. In fact, the campaign plan that 
Lieutenant General Eikenberry and the embassy and the Joint 
Interagency developed some years ago and in fact the transition 
to NATO and coalition forces has been and indicates steady 
progress in increasingly allowing NATO and ISAF and, more 
importantly, the Afghan security forces to play an increasing 
and more important role in governing its own territory.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Marshall. Thank you, Mr. Johnson. Ms. Long.
    Now the gentlemen from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank the witnesses for their endurance and I 
want to compliment General Eikenberry and your description of 
what is at stake in Afghanistan, how important it is to our 
security to make sure we succeed there.
    I wanted to ask, though, about a report that was in the 
press yesterday, actually, that read, the headline: U.S. 
artillery rounds target Taliban fighters in Pakistan. It was 
describing some remote outpost where U.S. troops were firing 
artillery into Pakistan, which again it appears it was in 
complete self defense and totally justifiable in terms of the 
safety of our troops. But the article sort of goes on to 
pinpoint an agreement that the government of Pakistan reached 
with the Taliban and Waziristan as sort of a problem in terms 
of increasing rather than decreasing the number of attacks that 
are coming from I guess it is southern Afghanistan, if I read 
the stories correctly.
    I was just wondering if you could comment in terms of 
whether those criticisms of that agreement that the government 
of Pakistan made are in fact worsening the situation rather 
than improving it.
    General Eikenberry. Congressman, the agreement that you are 
referring to is the so-called North Waziristan Agreement 
negotiated by the government of Afghanistan with tribal leaders 
in the North Waziristan area. The North Waziristan area is part 
of what is called the Pakistan Federally Administered Tribal 
Areas. Historically still today it has a great deal of autonomy 
and challenges in the Federally Administered Tribal Areas with, 
as we would call it, ungoverned space and lack of government 
control.
    So the agreement that was reached with the government of 
Pakistan was an effort to try to bring security to the area. 
The broad outlines of the agreement, the characteristics of it 
we were supportive of in terms of, the agreement did not allow 
for insurgents to use North Waziristan to cross over and attack 
Afghanistan, did not allow for the presence of active foreign 
fighters.
    Now how has the agreement played out? Since that agreement 
was negotiated on the 5th of September, there has been problems 
with it. Indeed, if we were to compare the same periods of time 
since that agreement, same months to one year ago, the amount 
of cross-border attacks, what we would think are suicide 
bombers coming across the border from North Waziristan, those 
have increased anywhere from two times to three times as much 
over that same period of last year. You want to compare month-
by-month because weather changes, and as the weather starts to 
set in along the frontier, of course incidents are going to go 
down.
    So the agreement to this point has not achieved the results 
that we were expecting of, hopeful for, and there still remains 
a very significant threat against our forces and indeed against 
Pakistani forces emanating from North Waziristan.
    Secretary Gastright. General Eikenberry described 
previously President Musharraf's frontier initiative, and the 
North Waziristan Agreement was a part of one of the pieces of 
this initiative, which has three pillars. It has an economic 
development pillar. It has a security pillar, where he is 
trying to inject security forces into this very rugged terrain, 
which is considered one of the harshest environments in the 
world to operate in. And then, finally, it has a political 
pillar.
    This agreement was designed to be part of that political 
pillar to gain the consent of the governed, and as General 
Eikenberry indicated, it has not been completely successful. 
The Pakistanis have said it hasn't reached their expectations 
as well, but they remain committed to finding solutions and one 
of those solutions will undoubtedly involve the use of security 
forces to compel compliance.
    Ultimately, the vision is, squeeze out extremists, squeeze 
out the terrain that the extremists operate in today. And we 
support the overall frontier strategy as a way to develop that. 
It is a classic counter-insurgency campaign.
    Mr. Courtney. Again, I think you described the sacrifice 
that the Pakistanis have made, which has to be acknowledged and 
recognized. And obviously, the government is in a very 
precarious position politically as also was described, but it 
does seem that the description that Secretary Gates gave 
yesterday of success in that area was maybe a little 
overstated, given the fact that we are actually at the point 
where we are actually firing artillery into that area.
    Again, I appreciate your answers. Certainly there is a 
concern. We don't want conflicts widening rather than trying to 
control them.
    General Eikenberry. If I could just briefly comment on 
that, Congressman. I would like to emphasize that along the 
border, again, the military cooperation communications between 
the Afghan army, our Army, NATO and the Pakistanis is 
excellent. The enemy effectively crosses over the border and 
crosses back. When we make contact with that enemy, we are in 
close coordination frequently with the Pakistan military and 
take actions in coordination with the Pakistani military to 
attack the insurgents who are our enemies and their enemies.
    So the idea then of a cross-border attack with artillery, 
that is something that could be done in conjunction with the 
Pakistan military.
    Mr. Marshall. The gentleman from Pennsylvania, Mr. Sestak.
    Mr. Sestak. Thank you. I apologize. I swore when I got 
elected I would sit through all the hearings. Great record, 
huh. I apologize if these questions have been asked.
    General, can you tell me if Iran is being helpful in 
Afghanistan?
    General Eikenberry. Iran has traditionally had a cultural 
influence and an economic influence in western Afghanistan, and 
some of the economic modernization and reconstruction that 
western Afghanistan is experiencing today, experienced since 
the fall of the Taliban regime, which was an enemy of Iran as 
well, is very much due to----
    Mr. Sestak. So you would say some of their interests there 
are not dissimilar to ours?
    General Eikenberry. I would say that I believe that--I 
don't want to speak for Tehran's leadership. I don't suppose to 
define their intentions, but our assessment is that Iran does 
not desire to see a return of a Sunni----
    Mr. Sestak. So is it wrong to say that, at times, Iran can 
have interests similar to ours? Do it for different reasons, 
but they want stability there, correct?
    General Eikenberry. Strategically, our belief is that the 
Iran regime is broadly supportive of the Karzai Administration. 
Clearly, the Iranian----
    Mr. Sestak. Do we work at all with Iran, sir?
    General Eikenberry. They have an interest as well in 
fighting narco trafficking. It is also fair to say that Iranian 
intelligence maintains active collaboration with Taliban as a 
kind of hedging strategy against the NATO and against the 
United States.
    Mr. Sestak. I am sorry to interrupt, they only gave me 30 
minutes. A.Q. Khan, Mr. Secretary, are we going to have access 
to him? If not, why not? We are working well with Pakistan; 
aren't we?
    Secretary Gastright. The key is access to the information. 
And we have close coordination with Pakistani intelligence 
agencies to that information and the desire, obviously the goal 
of both our government and the government of Pakistan----
    Mr. Sestak. I hate to interrupt. How do you know the 
information they are giving us is accurate?
    Secretary Gastright. We have been able to shut down the 
A.Q. Khan network as a result of that.
    Mr. Sestak. So we have an instance where something has 
proven to be good. But we are not going to have access to him?
    Secretary Gastright. At this time, again, my information is 
we have excellent collaboration that the information is 
yielding positive results.
    Mr. Sestak. This one was probably already asked; how are we 
going get any other NATO countries to try to change the rules 
of engagement?
    Is that yours, ma'am?
    Ms. Long. Yes. Most recently, Secretary of State Rice and 
the Secretary of Defense recently met with NATO, the NATO 
foreign ministers meeting in Brussels and most recently in 
Seville. We have gotten some initial indications of some 
additional support. We haven't gotten enough, quite frankly, 
and we are going to have to continue to push.
    Mr. Sestak. General, the last one is, do you think you have 
enough troops to deal with the spring offensive?
    General Eikenberry. That is a question, Congressman, more 
appropriately for General Dan McNeill. I will say, though, that 
based on my experience on the ground, the commitment that the 
United States has made with the President and Secretary Gates 
announcing the decision then to keep a combat brigade of the 
10th Mountain Division inside of Afghanistan for yet another 
120 days will give the NATO forces sufficient combat capability 
that indeed they should be able to take the offensive now from 
what has traditionally been a period of time in the spring when 
the Taliban surge, and I believe NATO forces will dominate.
    Mr. Sestak. Thank you. I think your comment was very well 
done, for whatever it is worth, in your testimony where you say 
we need the strategic investment and capabilities in order to 
accelerate progress. I was on the ground in Afghanistan two 
months after the war began, brought my carrier battle group 
back, took a left turn, went to that tragedy in Iraq, came back 
and was on the ground in Afghanistan 18 months later for some 
short period of time. And some senior military officer said, we 
have our finger in the dike because our resources and attention 
were turned toward Iraq. That is one of the tragedies of Iraq, 
I think. I do think if something needs a surge in troops, it 
would be Afghanistan, to try not to have this country slip 
aside a second time from having been impacted by our policy 
here in the United States. I do think these words were right. 
Thank you.
    Mr. Marshall. I thank the gentleman.
    There are no further witnesses--pardon me, there are no 
further questioners at the moment. If the witnesses have just a 
little bit longer, I have an observation and perhaps question.
    General, in describing the Waziristan agreement you 
suggested that perhaps it wasn't working very well because the 
number of suicide bombers had increased coming across the 
border during this month, et cetera. I was struck by that kind 
of argument, and the reason I am is because it doesn't prove 
one way or the other whether the agreement is functioning well. 
It would be that, absent the agreement, the number of suicide 
bombers that would have come across the border, instead of 
doubling, would have quadrupled.
    Something else needs to be used to determine whether or not 
the agreement is functioning appropriately than reference to 
those kinds of statistics, it seems to me. Do you have anything 
else that suggests that we are having additional troubles from 
the tribal region there?
    General Eikenberry. That is fair, Congressman. The metric 
that I am using is, of course, the one that we are most 
directly concerned with, which is the force protection of our 
forces and our Afghan national allies. But other indicators 
that we have about challenges of the North Waziristan 
Agreement, we have seen indicators of further Talibanization 
politically within towns and villages of north Waziristan. We 
have seen instances of moderate leaders, moderate tribal 
leaders within Waziristan, North Waziristan, who have been 
executed or assassinated by militant extremists. We have also 
seen aspects of al Qaeda perhaps gaining more strength in North 
Waziristan. And I could go into a separate forum, Congressman, 
and lay out more, but it had--that analysis that I gave did 
have more than based upon just attacks on our forces.
    Mr. Marshall. I understand. Do any of the members present 
have additional questions for the witnesses?
    Admiral.
    Don't force yourself. I am sure they are not anxious.
    Mr. Sestak. I did write down four others, but I am just 
grateful for letting me have time here at the very end.
    Thank you, sir.
    Mr. Marshall. I thank the witnesses, and this hearing is 
adjourned.
    [Whereupon, at 1:18 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 13, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 13, 2007

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 13, 2007

=======================================================================
      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Characterize the US-Pakistan relationship in the 
fight against the Taliban and al Qaeda: What is the level of 
cooperation, success, areas that need improvement? How serious/
effective are Pakistan's efforts?
    General Eikenberry. Pakistan is a critical partner in the global 
war on terror, and has made significant sacrifices in the fight against 
Islamist terrorism. Pakistan has lost over 500 soldiers since 2001 in 
this fight. Pakistan has also captured many high-level al Qaeda and 
Taliban operatives. Pakistan provides significant logistical support 
for U.S. operations in Afghanistan. NATO and American operations in 
Afghanistan would be extremely difficult to conduct without the active 
cooperation of Pakistan.
    Pakistan has 80,000 Army and Frontier Corps troops based along the 
border with Afghanistan, and recently transferred two Army brigades 
from the Indian border to the Federally Administered Tribal Areas 
(FATA), which is a demonstration of its serious commitment to the war 
on terrorism.
    More can be done. A number of senior Administration officials, to 
include the Vice President and the Secretary of Defense, have visited 
President Musharraf to press for greater Pakistani action against 
terrorists operating in Pakistan's territory bordering Afghanistan.
    Pakistan's capabilities, particularly those of the Frontier Corps, 
could be improved. The Frontier Corps, whose officers are seconded from 
the Army, is raised among Pashtuns in the FATA and is theoretically the 
best force to conduct counterinsurgency operations against Taliban 
rebels operating in the FATA and then across the border in Afghanistan. 
The Frontier Corps lacks basic communications and target acquisition 
capabilities, particularly night vision capability. DOD views enhancing 
the Frontier Corps capability as a major supporting effort for our 
troops in Afghanistan.
    Ms. Tauscher. Characterize the Afghan-Pakistan relationship in the 
fight against the Taliban and al Qaeda: What is the level of 
cooperation and where are there problems?
    General Eikenberry. The relationship between Afghanistan and 
Pakistan is strained. The Afghans blame insurgent violence on Pakistan. 
Pakistan has approximately 80,000 security forces positioned in the 
frontier areas adjacent to Afghanistan. They cite the inability of 
coalition forces to deliver security and development into the Pashtun 
dominated areas. The Government of Pakistan (GOP) appears to be is 
doing everything it can to secure the border. Unfortunately, true 
border security calls for dealing with a powerful Pashtun tribal 
influence that more often sides with the Taliban than the government. 
Since 2001, the GOP has worked to gain access to the tribal areas 
through a series of military and political engagements. Direct military 
confrontation only served to embolden the tribal elements and resulted 
in significant combat loses for Pakistan's military, who are considered 
a ``foreign'' force in the tribal areas. Nevertheless, a military 
contingent continues to occupy the tribal areas and along the immediate 
border. Only recently have diplomatic efforts begun to achieve results 
when South Waziristan Agency (SWA) militants with Pakistani military 
support expelled AQ sympathetic Uzbek fighters from SWA. The GOP views 
accountability as key to true border security and despite Afghanistan's 
objection, initiated construction of a border fence in March. Other 
accountability measures including biometric monitoring again met Afghan 
resistance. On a diplomatic front, the GOP considers bilateral 
agreements with Afghanistan key to securing the border and both parties 
have agreed to discuss future and ongoing efforts during talks in 
Turkey. Pakistan and Afghanistan have demonstrated an ability to work 
through complex, controversial refugee and military issues using 
Tripartite forums with the United Nations and United States. Defeating 
the insurgency in Afghanistan requires that Pakistan and Afghanistan 
work together to develop shared solutions to the many factors 
contributing to the insurgency.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ANDREWS
    Mr. Andrews. I ask if the witnesses could submit their data on the 
cost of training Afghani military personnel and police personnel.
    Secretary Gastright. In fiscal year 2006 Combined Security and 
Transition Command Afghanistan executed $108.6 million of Afghan 
Security Forces Funds in the training Sub Activity Group (SAG) for 
Afghan National Army. For these dollars, Combined Security and 
Transition Command Afghanistan provided medical training, property book 
training, management training program, English language training, 
embedded trainer support, and a mentoring program. This included the 
training of 9,616 new Afghan National Army soldiers.
    Additionally, Combined Security and Transition Command Afghanistan 
executed $425 million of Afghan Security Forces Funds in the training 
Sub Activity Group for the Afghan National Police. For these dollars, 
Combined Security and Transition Command Afghanistan provided basic 
police training, tactical training initiative, provincial police 
training, field police training, criminal investigation training, 
instructor training, tactical driving course training, mentors, 
operational maintenance expenses for regional training centers and the 
central training center. This included the training of 8,875 new Afghan 
National Police Officers.

                                  <all>

</pre></body></html>
